<html>
<title> - UNDER THE INFLUENCE: THE BINGE DRINKING EPIDEMIC ON COLLEGE CAMPUSES</title>
<body><pre>[Senate Hearing 107-553]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-553
 
  UNDER THE INFLUENCE: THE BINGE DRINKING EPIDEMIC ON COLLEGE CAMPUSES
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                              MAY 15, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs







                          U.S. GOVERNMENT PRINTING OFFICE
80-600                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
             Kiersten Todt Coon, Professional Staff Member
              Richard A. Hertling, Minority Staff Director
            W. Baxter Lee, Legislative Aide to the Minority
                     Darla D. Cassell, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Carper...............................................    34
Prepared statement:
    Senator Bunning..............................................    39

                               WITNESSES
                        Wednesday, May 15, 2002

Raynard S. Kington, M.D., Ph.D., Acting Director, National 
  Institute on Alcohol Abuse and Alcoholism, National Institutes 
  of Health, U.S. Department of Health and Human Services........     3
Ralph W. Hingson, Sc.D., M.P.H., Professor and Associate Dean for 
  Research, Boston University School of Public Health............     5
Mark S. Goldman, Ph.D., Director, Alcohol and Substance Abuse 
  Research Institute, University of South Florida................     7
Daniel P. Reardon, D.D.S., Parent................................    18
John D. Welty, Ed.D., President, California State University, 
  Fresno.........................................................    20
Robert F. Nolan, Chief of Police, Town of Hamden, Connecticut....    22
Drew Hunter, Executive Director, The BACCHUS and GAMMA Peer 
  Education Network..............................................    25

                     Alphabetical List of Witnesses

Goldman, Mark S., Ph.D.:
    Testimony....................................................     7
    Prepared statement with an attachment........................    49
Hingson, Ralph W., Sc.D., M.P.H.:
    Testimony....................................................     5
    Prepared statement...........................................    44
Hunter, Drew:
    Testimony....................................................    25
    Prepared statement...........................................    81
Kington, Raynard S., M.D., Ph.D.:
    Testimony....................................................     3
    Prepared statement...........................................    40
Nolan, Chief Robert F.:
    Testimony....................................................    22
    Prepared statement...........................................    77
Reardon, Daniel P., D.D.S.:
    Testimony....................................................    18
    Prepared statement...........................................    56
Welty, John D., Ed.D.:
    Testimony....................................................    20
    Prepared statement with attachments..........................    58

                                Appendix

Chart entitled ``Task Force Materials'' submitted by Dr. Kington.    85
Chart entitled ``College Students U.S.'' submitted by Dr. Hingson    86
C.D. Mote, Jr., President, University of Maryland, prepared 
  statement with attachments.....................................    87
Catherine Bath, Program Director, Security On Campus, Inc., 
  prepared statement.............................................    99


  UNDER THE INFLUENCE: THE BINGE DRINKING EPIDEMIC ON COLLEGE CAMPUSES

                              ----------                              


                        WEDNESDAY, MAY 15, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Carper.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning. Thanks to all of you for being here.
    Today we are here to talk about a very serious public 
health problem and our message is a simple but serious one, 
which is that alcohol abuse on college campuses has reached a 
point where it is far more destructive than most people realize 
and today it threatens too many of our young people. College 
students need to know that if they party to excess, they could 
die, and college administrators need to know that intervention 
is the only way to get this out-of-control behavior under 
control.
    I came to this concern, which led to this hearing today, 
from simply observing, listening, and watching what was 
happening in my home State of Connecticut. Within the last 12 
months, six college students have died in alcohol-related 
incidents. Eighty-five alcohol-related arrests were made during 
the University of Connecticut's spring weekend this year, and 
last week, Trinity College suspended one of its oldest 
fraternities.
    The numbers here are alarming. The rate of death and injury 
is extremely alarming, especially given Connecticut's 
relatively small size, but I have come to understand that this 
is not an anomaly. It is not unusual. Connecticut is, sadly, 
just a part of a nationwide trend among college students to get 
as drunk as possible as quickly as possible, often with 
devastating effects.
    Obviously, I know that many people consider drinking to be 
just another rite of passage for many college students and I 
can even remember my own college days and such behavior. But 
drinking is not the issue here. What we are concerned about is 
drinking in excess, binge drinking, drinking one's self to 
death. This type of behavior is not a harmless initiation into 
adulthood and is not a sport. It is reckless behavior, toxic 
conduct that can cut young lives short.
    We are fortunate to have with us today the Acting Director 
of the National Institute on Alcohol Abuse and Alcoholism, 
which has recently published a powerful study illustrating the 
seriousness of the problem of heavy episodic drinking on 
American college campuses. The study found that while the 
proportion of non-drinking students has actually risen, so too 
have extreme forms of drinking. The upshot is that drinking by 
college students between the ages of 18 and 24 contributes to 
1,400 deaths a year, 70,000 cases of sexual assault or rape, 
and 500,000 injuries.
    Let me repeat those numbers because they are, to me, 
stunning. Each year, college drinking contributes to 1,400 
deaths, almost half the number of lives lost in the terrorist 
attacks against us on September 11, 70,000 sexual assaults or 
rapes, and 500,000 injuries.
    Additionally, the Surgeon General has identified binge 
drinking among college students as a major public health 
problem. About 40 percent of students apparently binge drink, 
according to one study, and that is defined as five or more 
drinks in a row for men and four or more drinks for women. One 
recent survey found that 20 percent of students reported 
binging more than three times over a 2-week period.
    Most binge drinkers are freshmen. Most are men. Most attend 
schools where fraternities, sororities, or athletics dominate 
campus life, and curiously, and to me interestingly, the 
National Institute also found that most binge drinking occurs 
in the Northeast. That is, more of it occurs proportionately in 
the Northeast than any other section of the country.
    Clearly, the culture of high-risk drinking is a problem 
that touches not just a few students and their families or a 
few campuses but entire communities, and in that sense, the 
Nation.
    Edward Malloy, the President of the University of Notre 
Dame, Father Malloy, who co-chairs the National Institute on 
Alcohol Abuse and Alcoholism Task Force on College Drinking, 
has said that even though ``a minority of college students 
engage in high-risk drinking, all students and their parents, 
faculty, and members of the surrounding community suffer the 
negative consequences of alcohol abuse, and that includes 
assault, vandalism, and traffic accidents.''
    So our obvious question is, what is being done about this? 
In my opinion, based on what I have learned to date, not enough 
is being done. Some colleges are actively working to revise 
their alcohol policies. Others are struggling with policy 
changes. But, frankly, from what I can see thus far, too many 
more are denying that a problem even exists.
    I paid a very encouraging visit to the University of 
Connecticut campus in Storrs on Monday, where I heard of an 
aggressive new program that is directed at this problem. And, 
there are some other colleges that are implementing similar 
programs as well. For example, the California State University 
system is a model of intervention. After the alcohol overdose 
of a freshman fraternity pledge, the California State system 
adopted a comprehensive set of policies to reduce alcohol abuse 
among students, which includes educational programs, training, 
intervention, and treatment. The California State University 
system, I think, should be commended for understanding that to 
sit on the sidelines is to await the worst, including the death 
of more students.
    More colleges and universities need to be implementing 
tougher alcohol policies and working with communities and local 
law enforcement to enforce minimum drinking age laws, to 
increase enforcement at campus events where excessive drinking 
is promoted, and to inform incoming students and their parents 
about alcohol policies and penalties.
    I do not know, as we begin this hearing, whether there is 
any appropriate legislative response from Congress or State 
legislatures to this public health problem. In the first 
instance, we are holding this hearing to educate the Committee, 
but also in that sense to educate the public and, hopefully, to 
engender action and reaction from students, from parents, from 
faculty, and from college and university administrators that 
will save lives.
    As the research shows, excessive alcohol consumption 
threatens the health and safety of students and disturbs and 
threatens the lives of those who live in communities 
surrounding the campuses. So we have got to redouble our 
efforts to bring this kind of alcohol consumption under 
control, to provide students with the tools to make more 
informed decisions so that we save the lives of as many 
students as possible.
    We have two panels of witnesses today. The first are people 
who have done research and work in the field and we are 
delighted that they are with us. Dr. Mark Goldman is the 
Director of the Alcohol and Substance Abuse Research Institute 
at the University of South Florida. Dr. Ralph Hingson is 
professor and Associate Dean of Research at the Boston 
University School of Public Health. Dr. Raynard Kington is the 
Acting Director of the National Institute on Alcohol Abuse and 
Alcoholism, National Institutes of Health, U.S. Department of 
Health and Human Services.
    Dr. Kington, I would like to begin with you. We have your 
and all the other witnesses' prepared statements, for which we 
thank you. They are very well done and very helpful. We will 
enter them fully in the record and I ask that you proceed for 
approximately 5 minutes. We have a light system here which will 
let you know when you have a minute to go. If you have a little 
more than a minute, do not fear that we will close the mike 
because we want to hear you out. Anyway, thank you for being 
here and good morning. We welcome your testimony now.

    TESTIMONY OF RAYNARD S. KINGTON, M.D., PH.D.,\1\ ACTING 
 DIRECTOR, NATIONAL INSTITUTE ON ALCOHOL ABUSE AND ALCOHOLISM, 
 NATIONAL INSTITUTES OF HEALTH, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. Kington. Thank you and good morning, Mr. Chairman. My 
name is Raynard Kington. I am Acting Director of the National 
Institute on Alcohol Abuse and Alcoholism, also known as NIAAA, 
of the National Institutes of Health. Thank you for inviting me 
here to discuss an extremely important public health issue, 
excessive and high-risk drinking among students at our Nation's 
colleges and universities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Kington appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    Last month, NIAAA's Task Force on College Drinking released 
some important new data. You may have seen the troubling 
statistics detailing dangerous drinking behavior by college 
students and its consequences both for drinkers and those who 
do not drink but must suffer the results of others drinking. We 
see the harm caused by excessive drinking by college students; 
it is profound. As you noted, the deaths, the injuries, 
assaults, and sexual assaults are very troubling.
    The scientific evidence of the size of the problem is only 
reinforced by the regular press coverage of deaths on college 
campuses throughout the country. For example, the news stories 
in the past several months have reported on tragic deaths of 
students at Quinnipiac University in Connecticut and the 
University of Maryland, in particular. These deaths highlight 
the consequences of college drinking for families and for 
colleges and universities and for the peers and friends of 
these students.
    What did not receive as much attention in the press 
coverage of the report is what can be done by communities, 
college presidents, parents, students, and others. The task 
force did not want to identify another major health problem 
without focusing on ways of addressing the problem.
    The task force, as you noted, chaired by Dr. Goldman and 
the University of Notre Dame President Father Edward Malloy, 
was formed in 1998 by the National Advisory Council on Alcohol 
Abuse and Alcoholism amid growing concern about college 
drinking and the need to fill the gaps in our knowledge base 
regarding effective interventions. The task force was charged 
with examining all scientific data, commissioning studies to 
fill the gaps in our knowledge, and recommending research-based 
solutions.
    The report moves beyond the sheer number of college 
students engaged in high-risk drinking and focuses on the 
tremendous overall societal burden created by the problem. We 
also provide tools to help college presidents address the 
problem.
    The task force was unique in many ways. It was the first 
project of this breadth and depth to bring together college 
presidents, researchers, and college and high school students. 
It is the first NIH report on college drinking, producing 24 
commissioned papers on all aspects of this issue. In addition 
to the lead publication by Dr. Hingson, who is with us today, 
in the Journal of Studies on Alcohol, 18 of those papers were 
published in a special supplement to that journal.
    It is the first report to offer research-based 
recommendations to college presidents. The task force also 
produced a variety of products noted on the board that reach 
out to and address the needs and interests of a wide range of 
audiences, including college presidents, researchers, parents, 
college students, and peer educators. We launched a new 
website, www.collegedrinkingprevention.gov, which includes 
full-text versions of all the products plus other useful 
information. Since April 9, when the report was released, the 
site has logged over 1.2 million hits, another measure of 
public interest.
    Finally, the task force sets forth a comprehensive research 
agenda to ensure that future interventions are also based on 
scientific evidence. We are currently spending approximately $7 
million to study these issues with an additional $8 million 
proposed over the next 2 fiscal years.
    As we discuss the problem, we need to be very clear about 
one thing. While many college students do not misuse alcohol 
and many do not drink at all, a culture of high-risk drinking 
prevails on many campuses. Some have suggested that drinking 
has always been a part of the college tradition and always will 
be, but high-risk drinking and its often tragic consequences 
are preventable. We refuse to accept a single alcohol-related 
death, a single assault, a single case of date rape as 
inevitable.
    As a result of the task force, we now know not only how 
injurious college drinking is to our sons and daughters, but 
also that there are steps that we can take on our campuses and 
in our communities to address the problem today, even as we 
continue to learn more about the problem and its solution.
    Is our work done? Absolutely not. We are planning to 
conduct regional workshops around the country. One of the task 
force presidents, Dr. Susan Resneck Pierce of the University of 
Puget Sound, will host the first of these regional workshops 
next fall. Dr. Robert Carothers, President of the University of 
Rhode Island, has been invited to host a regional meeting for 
the New England States. We have produced additional brochures 
and other information for different audiences, such as high 
school guidance counselors and community groups.\1\
---------------------------------------------------------------------------
    \1\ Chart entitled ``Task Force Materials'' appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    We will expand research collaborations with universities, 
such as a project we are funding that you noted with 16 
campuses in the California State system, jointly funded by the 
Substance Abuse and Mental Health Services Administration, 
SAMHSA. We will also seek to increase our coordination with 
other Federal agencies, including the Department of Education, 
SAMHSA, and other entities, such as the Robert Wood Johnson 
Foundation.
    This is just the beginning of what promises to be a long-
term effort. Changing the culture does not come quickly or 
easily. We urge all college and university presidents to apply 
the recommendations of the report. NIAAA is sending the report 
and all related materials to every college and university in 
the country. We challenge society to no longer ignore the 
consequences of drinking on our Nation's campuses. Thank you 
again for inviting me.
    Chairman Lieberman. Thank you, Doctor. That was an 
excellent beginning. Now, Dr. Hingson.

TESTIMONY OF RALPH W. HINGSON, Sc.D., M.P.H.,\2\ PROFESSOR AND 
ASSOCIATE DEAN FOR RESEARCH, BOSTON UNIVERSITY SCHOOL OF PUBLIC 
                             HEALTH

    Dr. Hingson. Thank you. I am Dr. Ralph Hingson. I am the 
Associate Dean for Research at the Boston University School of 
Public Health.
---------------------------------------------------------------------------
    \2\ The prepared statement of Dr. Hingson appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    What I would like to do this morning is first review some 
of the methods used in a paper commissioned by the task force 
to look at the magnitude of alcohol-related mortality and 
morbidity among college students ages 18 to 24 and then offer 
some suggestions based on the review that we did of the 
scientific literature about what types of intervention can work 
to address the problem. Certainly, there is no silver bullet 
and there is a lot that we need to learn above and beyond what 
we have already seen, but the good news is that there is a lot 
that we can do with what we know already.
    First of all, to derive the estimates of the magnitude of 
the problem, we tried to integrate across multiple data sets. 
We looked at the U.S. Department of Transportation Fatality 
Analysis Reporting System, which looks at motor vehicle 
alcohol-related crash deaths, the Centers for Disease Control 
mortality files, the U.S. Department of Education college 
enrollment data, U.S. Census Bureau data on the number of 18- 
to 24-year-olds in the United States, a review published in 
1999 in the Annals of Emergency Medicine, authored by Gordon 
Smith et al., looking at alcohol involvement in injury 
deaths.\1\ This was a review over a 20-year period of over 300 
medical examiner studies published in the United States in the 
scientific literature.
---------------------------------------------------------------------------
    \1\ Chart entitled ``College Students U.S.'' appears in the 
Appendix on page 86.
---------------------------------------------------------------------------
    We also looked at three national surveys, the Centers for 
Disease Control College Youth Risk Behavior Survey conducted in 
1995, the 1999 Harvard School of Public Health College Alcohol 
Survey, and the 1999 National Household Survey of Drug Abuse. 
That survey was particularly helpful because it looked at over 
19,000 respondents ages 18 to 24, of whom nearly 7,000 were 
college students. So we were able to compare 18- to 24-year-
olds in college with those not in college.
    You have already mentioned some of the results. We estimate 
1,400 alcohol-related unintentional injury deaths each year. 
The bulk of those, 1,100, are traffic deaths. In addition, we 
projected based on the surveys and given the population of 
college students that 2.1 million college students every year 
drive under the influence of alcohol, 500,000 are injured 
because of drinking, 400,000 have unprotected sex.
    I think a particularly startling statistic was that over 
600,000 college students are assaulted each year by another 
drinking college student. I live in the city of Boston. The 
population there is about 600,000. That is equivalent to the 
city of Boston in a given year being assaulted by a drinking 
college student. And as you mentioned, 70,000 were the victim 
of a sexual assault or date rape by another drinking college 
student.
    These numbers are, frankly, higher than I anticipated that 
they would be when we began our research and lead me to two 
immediate conclusions.
    First, I think we need to improve our data systems in 
monitoring this. I believe that we need to test, and this is a 
legislative recommendation, I think we need to test every 
unnatural death in the United States for alcohol. We do a 
pretty good job of testing fatally injured drivers in traffic 
crashes and that has permitted us to assess whether or not 
legal interventions and programs to reduce drinking and driving 
have had an impact on reducing alcohol-related traffic deaths. 
We need to do this for all unnatural deaths, for homicides, 
suicides, falls, drownings, burns, and so on so that we can get 
a yardstick against which to measure whether or not our 
programs make any difference.
    Second, as you mentioned, we need to enforce our age 21 
law. That is the legal drinking age in every State in the 
Nation. We know that when that law is enforced, that it reduces 
alcohol-related injuries and fatalities.
    Because most of the alcohol-related deaths among college 
students are traffic deaths, we do have a series of 
recommendations based on research that can reduce alcohol-
related traffic deaths. Administrative license revocation laws, 
we have those in 40 States. Lowering the legal limit to 0.08, 
the Senate has already passed legislation that will fine States 
if they do not do that. Thirty-two States have that law. 
Mandatory screening and treatment for people who are convicted 
of driving while intoxicated, the law in 23 States. Primary 
enforcement of safety belt laws, we have that only in 18 
States. That law, if every State adopted it, probably prevent 
600 alcohol-related traffic deaths a year and another 1,000 
non-alcohol-related traffic deaths. And then, finally, the use 
of sobriety checkpoints is a proven method to reduce these 
problems.
    Finally, we need to have colleges and their surrounding 
communities form partnerships and work together to address this 
problem. The colleges cannot do it alone. If they crack down 
and the communities, surrounding communities are not on board, 
it will just drive the problem out in the community. 
Conversely, if the communities crack down and the colleges are 
lax, it will just drive the problem back onto campus. We need 
the two of them to work together and to involve students.
    I think that unless students are involved in this process, 
many of them will think that greater restrictions are 
authoritarian and paternalistic. What most people do not know 
is that a majority of college students want stricter 
enforcement and stricter regulation around alcohol issues. 
After all, many of them are being affected by other student's 
drinking and behavior after drinking.
    So I think that we do have a number of tools available to 
us to reduce this problem and if we implement those laws and 
those regulations and enforce them, we will not only reduce the 
harm that college drinking students cause themselves, but the 
harm that they cause other college students and members of the 
community, as well.
    Chairman Lieberman. Thanks, Doctor, for very helpful 
testimony, also. Dr. Goldman, good morning.

 TESTIMONY OF MARK S. GOLDMAN, Ph.D.,\1\ DIRECTOR, ALCOHOL AND 
SUBSTANCE ABUSE RESEARCH INSTITUTE, UNIVERSITY OF SOUTH FLORIDA

    Dr. Goldman. Good morning, Mr. Chairman, and thank you for 
inviting me here today. My name is Mark Goldman and I am 
Distinguished Research Professor of Psychology at the 
University of South Florida in Tampa, Florida. I was co-chair 
of the Task Force on College Drinking.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Goldman with an attachment 
appears in the Appendix on page 49.
---------------------------------------------------------------------------
    Clearly, we have reached a stage at which serious national 
conversation has begun, and I applaud this Committee for taking 
the lead in this effort with today's hearing. Because Dr. 
Kington has summarized the task force's goals and Dr. Hingson 
has reviewed the consequences of college drinking, I will first 
make a few overarching points that link our task force report 
to the needs of American society. Then I will briefly summarize 
the task force's conclusions and recommendations.
    In my role as task force co-chair, I had the opportunity to 
meet some of the parents tragically affected by the events 
reported by Dr. Hingson, and because I have children of my own 
in this age range, I resonate to their stories. But these 
individual stories and statistics, alarming as they are, 
combine into an even bigger story. Simply put, this is an 
enormous public health problem in America today, a problem that 
has remained stubbornly consistent for decades.
    Alcohol is tightly interwoven into the social fabric of 
college life, bringing with it enormous social, economic, and 
personal consequences for our children, consequences, we are 
learning, that are probably more extensive than any of us 
imagined. I cannot emphasize enough that it is a culture, our 
culture, which we face. At best, this culture seizes some of 
our best and brightest, robbing them of their academic 
potential, and it affects virtually all members of the college 
community, including non-drinking students who are often 
victimized. At worst, this culture takes lives right then and 
there. These circumstances cannot be dismissed, therefore, as 
simply a rite of passage or an inevitable part of college life.
    For policy makers and legislators, however, there is an 
equally important, although much less obvious, point to 
remember. Despite the certainty with which many researchers 
present their findings, much work remains to be done. 
Certainly, there is an abundance of small scale, university-
specific studies and there is ample anecdotal evidence and case 
studies which document the kind of apparently isolated events 
commonly used by the media to bring this issue to the public 
attention.
    But in almost all areas of college drinking, from how 
widespread the problem is to the factors that place individuals 
at most risk for the problems, to what types of interventions 
work best, there is a paucity of research that adheres to the 
level of methodological rigor that is essential if research is 
to be truly informative for decision makers. Encouraging 
college presidents, policy makers, and researchers themselves 
to demand this standard of scientific rigor is one of the 
critical aspects of our task force report.
    Rigorous scientific research has the potential to break the 
terrible cycle we see repeated time and again, a tragic death 
followed by a large amount of money thrown at the problem with 
little or no evaluation. Few of these efforts achieve any 
lasting results. Administrators become frustrated, policy 
makers cynical, students apathetic, and college drinking 
continues as an apparently intractable problem.
    Now, as to specific recommendations, two are offered for 
presidents and their staffs. First, the task force recommends 
an overarching framework for organizing alcohol prevention and 
intervention programs. The purpose of this organization, which 
is called the three-in-one framework, is to create a 
comprehensive program that focuses simultaneously on multiple 
levels--individuals, the student population as a whole, and the 
surrounding community--and each of these approaches must be 
used in concert. Problems are likely to arise in any domain not 
included in the plan. To achieve this concerted approach, 
representatives from each of these components must be part of 
the planning process, including the alcohol and hospitality 
industries.
    Second, the task force recommends specific strategies 
tailored to the unique needs and characteristics of each school 
that may be used within each of these levels. No two schools 
are alike. The recommended strategies are divided into four 
tiers, effective with college audiences, effective with general 
populations but not yet tested, promising, and ineffective. 
Planners must choose from the first three alternatives and then 
evaluate outcomes. We would never allow a medication to be 
commercially used without testing, but that practice is 
regularly followed in connection with college drinking 
programs.
    For the research community and NIAAA in particular, the 
task force identified a variety of knowledge gaps that offer 
new research opportunities and it called for communication of 
results as broadly as possible. And, it emphasized the bridging 
of the gap that all too often exists between researchers and 
policy makers.
    I believe these steps, taken together, will move our field 
and our Nation forward in coming to grips with a pervasive 
public health problem.
    The path we need to follow is relatively clear, but it is 
not easy or inexpensive. We need the public will and leadership 
of legislators to provide the resources needed to continue this 
important work, and we need to acknowledge the disparity 
between the size of the problem and the resources currently 
devoted to the organizations designed to address it. As an NIH 
institute, NIAAA is perfectly situated to lead the effort to 
cope with this huge societal problem. Thank you again.
    Chairman Lieberman. Thanks, Dr. Goldman.
    Thanks to all of you. Dr. Goldman made a statement about 
the problem existing for a long time, and I think all of us 
know that from our own experience. Is there any data to suggest 
that the problem of so-called binge drinking has become more 
serious in recent years on college and university campuses? Dr. 
Hingson.
    Dr. Hingson. There is some survey data, the College Alcohol 
Survey that Dr. Henry Wechsler conducts at the Harvard School 
of Public Health. It is a national survey that he has been 
conducting periodically since 1993. The evidence is that there 
has been a slight increase in this, what you call binge 
drinking, five or more drinks on an occasion in the past couple 
of weeks for a man or four or more for a woman. This has 
increased.
    What is interesting is that during the same time period 
among people under the age of 21, among high school students, 
for example, there have been declines in consumption and there 
have been declines in this type of drinking among persons the 
same age not in non-college. So it is particularly an issue on 
the college campuses.
    But I think it is important to point out that a lot of the 
problems arise--the drinking problems begin even before young 
people start to college. There is a whole line of research that 
indicates that the younger people are when they begin to drink, 
the more likely they are to develop alcohol dependence, the 
more likely they are to drink frequently to intoxication, to 
experience unintentional injuries, motor vehicle crashes 
because of drinking, get in physical fights because of 
drinking, have unprotected sex after drinking. This is a 
problem that is bubbling up into the college campuses and that 
is why it is so important that we need to work with the 
communities in which the college students reside.
    Also, even though a smaller percentage of 18- to 24-year-
olds who are not in college are not driving after drinking as 
those in college or engaging in binge drinking as frequently, 
there are so many more 18- to 24-year-olds not in college than 
in college that overall a larger number engage in those 
behaviors that they account for even more fatalities and 
injuries than we talked about in the report on college student 
drinking. So this is a problem that the entire society needs to 
address.
    Unintentional injuries in the United States are the leading 
cause of death for people ages one to 34. Thirty-eight percent 
of those injuries are alcohol-related. So what are we talking 
about here? We are talking about the leading contributor to the 
leading cause of death of young people in the United States. 
That is something that not only college campuses, but our 
entire society needs to try to address.
    Chairman Lieberman. Well said. Any other thoughts about the 
relative seriousness of the problem? Dr. Goldman.
    Dr. Goldman. Yes. I would like to say that we have to keep 
in mind, again, that this is a culture, and part of the culture 
is that we have not paid attention to this. It has seemed 
something acceptable. It seemed something ordinary. In many 
ways, our whole society has been working for many years to 
avoid looking at it and I think this problem may have been with 
us, perhaps not in the same degree that it is now, but it may 
have been with us for a long time and we look away, we cover it 
up, we avoid tackling this problem because it seems so everyday 
and something that is accepted.
    I think the point that needs to be made--and this hearing 
is a perfect starting point--is that the attention has to be 
placed on this behavior in a way that suggests that it is not 
something that should remain as part of our culture but rather 
something that we need to change.
    Even an institute like NIAAA, people think of as dealing 
with serious alcoholism. Well, in fact, the problem is much 
larger. The public health problem, the problem of alcohol 
pervades many aspects of our society, from children even 
through adolescence through college, and in ways that are not 
the characteristic alcoholic that people think of. We need to 
tackle this problem in this broad way and stop thinking of it 
as something ordinary.
    Chairman Lieberman. I want to come back in a little bit to 
the comments you made about alcoholism, but you have used the 
word ``culture'' several times. What do you mean by that? Do 
you mean our culture in the normal sense in which culture is 
used is sending messages to young people about the 
acceptability of drinking or do you mean that there is sort of 
a sociological ethic within the college campus community that 
creates its own incentives or lack of deterrents to indulge in 
such behavior?
    Dr. Goldman. Well, let me put it this way. I have heard 
from a number of college presidents that when their schools, 
much to their chagrin, made it onto a national listing of top 
party schools, they thought that their enrollment would go 
down, and in fact, quite the contrary happened. Their 
enrollment went up. The applications went up.
    What happens is already in high school and before, kids are 
taught that one of the things that is going to happen when you 
get to college is you are going to get a chance to party and 
you are going to get a chance to have a really good time 
involving alcohol. They see their choice of college as actually 
being based, in part, on the opportunity to do that kind of 
thing. Then when they get to college, there are various factors 
within the college environment, of course, that sustain and 
perpetuate that kind of idea, and quite frankly, I think it 
even carries on into adulthood when people report to their kids 
what they remember about their own college lives and the fun 
that they had involving alcohol.
    So it just seems like this is the thing to do. This is what 
you do. You go to college, you study, and you party and drink, 
and all that goes together.
    Chairman Lieberman. That is interesting and, in some ways, 
surprising testimony. Part of what I had suspected and heard 
from a few people was that some college and university 
administrators do not focus on this problem because they do not 
want to highlight it for fear that it would actually reduce 
enrollments. It is a perverse notion that it might actually 
increase enrollments.
    Dr. Kington, did you want to add anything?
    Dr. Kington. Just that when trying to develop interventions 
to address this problem, it is extraordinarily important to 
recognize that there is a wide variation in cultures across 
college campuses. We have over 3,600 colleges and universities.
    Chairman Lieberman. In other words, individual campuses 
have their own cultures.
    Dr. Kington. Absolutely, and interventions have to be 
targeted to the specific circumstances on individual college 
campuses. That is why we have to have an array of tools that we 
can offer college presidents and communities to address their 
specific problems.
    Chairman Lieberman. I want to come back to this question of 
alcoholism because I have been focusing in my own mind on the 
problem of binge drinking, which I understand to be something 
different from alcoholism in the sense of a dependency on 
alcohol. Binge drinking, as I understand, is an act of 
momentary or temporary irresponsibility. I suppose it can lead 
to a dependency, but am I right? Is that what we are talking 
about here--something different from alcoholism as we have come 
to know it?
    Dr. Kington. Yes. Alcohol dependency, the disease, is 
different from what is often described as binge drinking. I 
think the point that was being made is that you have to look at 
this problem of binge drinking within a broader context of the 
societal problem of alcohol. But you are right, they are 
different things.
    Dr. Goldman. Although, if I may point out, that using the 
technical criteria of the Diagnostic and Statistical Manual of 
the American Psychiatric Association, a number of college 
students could have the diagnosis of alcohol dependence applied 
to them during their college years, based on their pattern of 
drinking.
    Dr. Kington. But binging, per se, does not equal 
alcoholism.
    Chairman Lieberman. It does not equal alcoholism. On the 
other hand, and correct me again, the number that jumps out of 
those statistics--which is the 1,400 deaths a year, and the 
other numbers, too, half-a-million injuries and 70,000 sexual 
assaults--presumably, those are not all the result of binge 
drinking. How do we divide the problem or is the data capable 
of doing that?
    Dr. Hingson. I think you have raised a very good point. I 
mean, what are we talking about with binge drinking? Five 
drinks in an hour, or five drinks for a male. If I had five 
drinks in an hour on an empty stomach, I would reach a blood 
alcohol level of about 0.10. That would be legal intoxication 
in every State in the Nation. So they are drinking to the point 
of impairment, and then, unfortunately, lack of judgment sets 
in and people engage in behaviors that pose risk not only to 
themselves, but to others.
    So we are talking about a pattern of drinking that not only 
is dangerous in and of itself, but contributes to other 
behaviors that pose risk for the drinkers and for people other 
than the drinkers, the people who may be assaulted, or 40 
percent of alcohol-related traffic deaths are people other than 
the drinking drivers. So there are a lot of innocent victims 
here and what I think we need to do is to mobilize the 
communities who are being adversely affected by these behaviors 
who may not necessarily be the heavy drinkers themselves but 
who are being impacted by the behavior, irresponsible behavior 
of these people after drinking to that level.
    Dr. Kington. It is also important to note that this is not 
just a problem of binge drinking.
    Chairman Lieberman. That is a good point.
    Dr. Kington. Those who drink less than that cutoff are 
often still impaired and can be the source of major problems, 
as well. You cannot just pin this on the binge drinkers.
    Dr. Hingson. About 20 percent of alcohol-related traffic 
deaths involve people with blood alcohol levels below 0.10, 
which five drinks would get you to that level.
    Chairman Lieberman. So binge drinking is a unique problem, 
but the overall problem we are discussing is part of a larger 
societal problem of substance abuse, in this case, of 
alcoholism.
    I want to make sure I understand something that you said 
earlier, Dr. Hingson, and was I hearing you correctly, which is 
that the problem of alcohol-related deaths and injuries is 
greater statistically among college students in that age 
bracket than non-college students?
    Dr. Hingson. When we looked at the National Household 
Survey on Drug Abuse, 42 percent of the 18- to 24-year-old 
college students reported engaging in this binge drinking 
behavior compared to 38 percent of the non-college. Twenty-
seven percent of the 18- to 24-year-old college students said 
they drove under the influence of alcohol in the past year, 
compared to 20 percent of non-college. So the college students 
are more apt to engage in this heavy drinking and risky 
behavior after----
    Chairman Lieberman. The percentage differences are not 
enormous, but they are real. How would you explain them? My 
reaction would be that students at college are away from home, 
so that they may take liberties that they would----
    Dr. Hingson. They do not have jobs to go to.
    Chairman Lieberman. They do not have jobs to go to the next 
morning, right.
    Dr. Hingson. They do not have the same responsibilities, 
and I think that, unfortunately, many college campuses have 
been permissive and have been lax in enforcing the legal 
drinking age, for example, of 21. Many college administrators 
feel that is a burden. What they do not recognize is that law 
saves lives.
    CDC recently reviewed 49 scientific studies on this. They 
found that when the drinking ages were lowered back in the 
1970's, there was a 10 percent increase in alcohol-related 
crashes. When the drinking ages were then increased, there was 
a 16 percent decline in alcohol-related crashes. The National 
Highway Traffic Safety Administration estimates that every 
year, 700 to 1,000 alcohol-related traffic deaths are prevented 
as a result of having a legal drinking age of 21.
    I think actually that is a conservative estimate because it 
does not take into account other problems that are associated 
with underage drinking, the falls, the drownings, the burns, 
the homicides, the suicides, the unprotected sex, illicit drug 
use, poor academic performance, and so on.
    And in addition, we have a recent body of research that is 
emerging that indicates that the younger people are when they 
start to drink, the more likely they are to have dependence, to 
have unintentional injuries under the influence, motor vehicle 
crashes after drinking, get in physical fights after drinking, 
not only when they are adolescents, but it carries over into 
adult life.
    So for all of these reasons, efforts to delay or prevent 
underage drinking or delay the age of onset of drinking will 
have life-saving benefits to our society.
    Chairman Lieberman. We will ask this question on the next 
panel, but one of the things that the University of Connecticut 
has done in response, and they lost two students this school 
year to an alcohol-related incident, is to increase the on-
campus penalties for involvement with alcohol, and we may hear 
more about that as we go on.
    Beyond law enforcement, either on campus or in society 
generally, I want to ask you now to speak in a little more 
detail about what we know about what kinds of programs work--
education, intervention, etc. Presumably, this is a classic 
case where you would want a light to go on in a student's head 
before they got into binge drinking, or in the head of a friend 
who would stop them before they went to excess. So what do the 
studies show?
    Dr. Hingson. I think that there are a number of 
experimental studies, and I will encourage Dr. Goldman to 
comment on this because he has done some of them, that indicate 
that individual counseling approaches with high-risk college 
students can reduce their drinking and subsequent problems.
    An illustration. Particularly in emergency department, 
trauma center settings, when people have been brought in and 
alcohol contributed to the problem that led them there to begin 
with, there was a study done by Dr. Larry Gontilillo at the 
Harbor View Trauma Center, where they tested for alcohol all of 
the people who came to that trauma center. So these are people 
who had to be put on life support to stay alive. They found 
that 46 percent had been injured under the influence of 
alcohol.
    They then did a randomized trial, an experimental study, 
where they allocated half of them to receive a 30-minute brief 
intervention where they were told how their drinking compared 
to people of the same age and gender nationwide, what their 
increased risk of injury and medical problem was if they 
continued to drink at that level, and then they were told where 
they could get help.
    They followed them up a year later. Those in the 
intervention group were averaging three drinks less per day. 
Over a 3-year period, compared to the control group there was a 
23 percent reduction in driving under the influence arrests, a 
47 percent reduction in emergency department injury admissions, 
and a 48 percent reduction in trauma center injury admissions. 
Those are remarkable reductions.
    Chairman Lieberman. That is very impressive.
    Dr. Hingson. What happened? They caught these people at a 
teachable moment. They had just been injured so severely under 
the influence that they needed to be put on life support to 
stay alive.
    A similar study has been done by Peter Monte at Rhode 
Island Hospital in a pediatric emergency department where the 
average age was 18 and he found similar results. There are at 
least eight or nine experimental studies with college students 
that show if you can identify high-risk college students and 
offer these types of brief interventions to them, it will 
reduce their drinking and subsequent problem.
    The issue is, unfortunately, that many college students do 
not think they have drinking problems and they are not getting 
recruited into and indentified in screening programs. Less than 
1 percent are receiving any kind of counseling in a given year.
    So certainly, one of the interventions that we need are the 
individually oriented counseling approaches, but we need to 
combine that with these environmental approaches that will 
change the whole culture, as Dr. Goldman talked about, that 
will make it less likely that young people will have access to 
alcohol and be in situations where people drink to excess.
    Chairman Lieberman. Dr. Goldman.
    Dr. Goldman. Yes. I was just going to say, it gives me the 
opportunity to underscore an important thing about this report. 
There might be a tendency to view this report as sort of the 
final word on this issue. In other words, we have looked at the 
literature and we are now telling people how it needs to be 
done.
    Unfortunately, in the process of looking at the literature, 
we found out how little of what we have in terms of 
intervention and prevention strategies is fully documented with 
college students. So what we need to be doing here is setting 
off the beginning of a process, and a hearing of this kind is 
exactly what we need. We need to have these discussions take 
place.
    We need to have colleges and universities sample from this 
menu in a thoughtful way in relation to their own context and 
then actually test and evaluate what is going on, because the 
kinds of things that we think are most appropriate and will be 
most comprehensive, mainly these large-scale environmental-type 
interventions where everybody is on the same page and everybody 
has coordinated has not been done.
    Chairman Lieberman. Tell us about that. In other words, Dr. 
Hingson's example with the impressive results was with a 
smaller group that already showed it had a problem, but it was 
a very effective response. What does the data say about--the 
report shows that this problem is more severe among freshmen. 
What does the data show, if anything, about the effectiveness 
of some kind of educational program for every incoming freshman 
on campus?
    Dr. Goldman. The first thing to say is that pure education 
seems not to do the trick, so the hopefulness of using those 
kinds of approaches exclusively is not very high. We just do 
not see great promise in pure education, independent of these 
other kinds of things.
    An important thing to say is that some of the work that 
needs to be done probably needs to be done before they get to 
college, because we have data to show that some of the worst 
drinking and most serious problems happen within weeks, in the 
first few weeks after arrival.
    One of the things that is sort of hard to understand 
without looking closely at it is that drinking is driven by 
context, so that among college students, they drink when they 
have the opportunity. They drink on Thursday night, Friday 
night, Saturday night, when there are not going to be classes 
the next day. They drink early in the semester when there are 
not going to be exams the next day.
    Those kinds of moments are the times when the most work 
needs to be done. We are not doing those kinds of things right 
now, and just telling students that problems are likely to 
arise is not going to have an effect. So the whole thrust of 
this is to set this conversation in motion, to get presidents 
of colleges and universities meeting with their staff and with 
the local communities and with the commercial outlets that are 
selling the alcohol and with the police and get everybody on 
the same page and organize a system in which--somebody early in 
this process used for me the concept of squeezing a balloon, so 
that we do not have the air popping out in another place from 
where we are squeezing. We have to do it all at the same time.
    Chairman Lieberman. Dr. Kington, does the NIAAA coordinate 
in this concern with other relevant Federal agencies? I am 
thinking here of the Department of Education, for instance, 
which might be a natural point of contact with the 
universities, colleges, or the Substance Abuse and Mental 
Health Services Administration, for instance?
    Dr. Kington. Absolutely. We have coordinated with the 
Department of Education, with the Substance Abuse and Mental 
Health Services Administration, with the Office of National 
Drug Control Policy, and with the Justice Department. We have 
had collaborations with a large number of different agencies 
and we think that is essential to actually address the problem.
    Obviously, as an agency within the National Institutes of 
Health, our focus is on the research agenda. Just to echo what 
Dr. Goldman had mentioned, one of the areas where we really 
need better research is looking at environmental changes, 
simple things such as reinstating Friday classes. On many 
college campuses, drinking begins a day earlier because Friday 
classes have been eliminated. Yet, we have not had rigorous 
scientific evaluations to assess those types of changes.
    Another simple change is switching from students as 
residential advisors to adults as residential advisors, just 
shifting the type of people who are living in the dorms with 
students.
    So those are the areas that we are focusing on. We are 
particularly interested in improving the scientific base for 
changing the environment, and we work closely with all of the 
relevant agencies in the Federal Government. We think that is 
essential.
    Chairman Lieberman. Let me ask each of you just a couple 
more questions. Again, I said at the outset that I do not know 
that this series of hearings will lead to specific legislative 
proposals, but there was one made earlier. I wonder if you have 
any other suggestions for legislation that would respond to 
this problem.
    Dr. Kington. Our focus, obviously, is on the research base, 
and to the extent that we can have the resources to expand the 
amount of research that we can do on these areas where there is 
anecdotal evidence but not solid scientific evidence, we will 
be in a better position to make sure that the interventions 
that are done are effective, because one of the great 
frustrations now is that college presidents do not have all the 
information they need. We pull together the best evidence that 
we have so that they can make the best decisions given the 
evidence. But if we can expand the evidence base, we will be in 
a better position of telling them not only what the choices 
are, but what the effect would be. So that is the thing that we 
think would be most effective for improving the science base.
    Chairman Lieberman. In other words, resources for research. 
I invite you to think about it and let the Committee know or 
let me know what the dimensions of that would be, what kind of 
needs you have.
    Also, I think you said earlier in your opening statement 
that you disseminate your work widely and directly to college 
and university administrators.
    Dr. Kington. This is the packet of material that was pulled 
together and we are sending it to every college and university 
in the country and we actually have been delighted with the 
response. We have had calls asking for hundreds of the packets 
of information----
    Chairman Lieberman. Good.
    Dr. Kington [continuing]. And we are gearing up to 
distribute it even more widely. The website has also been a 
great media for distributing information.
    Chairman Lieberman. Dr. Hingson, any other ideas for 
legislation?
    Dr. Hingson. Yes, a couple of things to say. First, there 
has been research that indicates that comprehensive community 
programs can reduce alcohol problems. These are programs where 
we organize across different departments of city government, 
the health department, the schools department, the police 
department, parks and recreation, engineering, and have people 
in city government work with concerned private citizens, the 
Chamber of Commerce, the PTA, Mothers Against Drunk Driving, 
people who care about these issues.
    A number of these studies have shown that among college-
age--they have not specifically identified college students, 
but among college-age, they can reduce the access of young 
people to alcohol, they can reduce their alcohol consumption, 
they can reduce hospital emergency department assault injury 
admissions, motor vehicle crashes, alcohol-related crash 
deaths. So just as we need to work cooperatively at the Federal 
Government across agencies, we need to do the same thing at the 
community level.
    One particular piece of legislation that I think would be 
important to look at, in over 30 States in the United States, 
there are laws that permit insurance companies to withhold 
reimbursement for people who have been injured under the 
influence of alcohol. If we think about that, that is a 
terrible disincentive for medical care providers in emergency 
department settings and trauma centers to test for the problems 
that are leading patients to wash up on their shores to begin 
with.
    Connecticut, by the way, has a model law that I think the 
rest of the country ought to consider with regards to reporting 
and testing for alcohol problems and requiring that that be 
entered into medical records. So I think you could look to your 
own State for legislation that I think would be a great 
benefit. In only about a third, 20 percent of trauma centers is 
there routine testing for alcohol going on. Only about a third 
of primary care physicians systematically query their patients 
about their drinking. So we need to move across entire 
communities, including the medical community, to have 
legislation that would favor taking a look at this problem 
rather than sort of hiding it under the rug.
    Chairman Lieberman. Very interesting. Dr. Goldman.
    Dr. Goldman. I do not have a specific recommendation for 
legislation, but I would like to underscore one point that I 
think would be important to come down from Washington and 
become a more generally agreed upon standard, and it 
underscores what I said earlier, which is we would never 
introduce a new medication to market without extensive testing. 
But routinely, problems come along, we see problems, such as 
with college students, someone comes along and markets a 
package. College presidents and administrators are sort of up 
against the wall to do something about it. They listen to a 
story and they buy into it. Then what happens is nothing much 
changes and everybody gets frustrated.
    What we need to do is underscore not just the idea of 
research in the sense of breaking new ground, but what we need 
is research in the sense of evaluations. Every school that does 
its own program needs to evaluate the consequences of that 
program to see what works, to see the parts that might work and 
the parts that do not work, to keep upgrading and moving it in 
a progressive direction.
    It cannot just be because somebody has made a decision that 
we will buy into this program and now that program is on campus 
and we are those who now take care of the problem because we 
have this program. That cannot be accepted as the standard any 
longer. We have to move toward an evaluation standard.
    Dr. Hingson. Sir, if I could make one final point----
    Chairman Lieberman. Go right ahead.
    Dr. Hingson. I think that there is a bill in Congress to 
roll back the tax on beer. The preponderance of scientific 
evidence indicates that price, if you increase the price of 
alcohol, that reduces consumption. Young people have less 
discretionary income, so they are particularly likely to be 
affected by this. Not every study shows this specifically among 
college students, but if we think about the issue of the 
younger people are when they start to drink and start to drink 
heavily, that lead to alcohol problems not only in college but 
throughout adult life, I think we have every reason not to cut 
back on the amount of tax that we have on alcohol.
    Chairman Lieberman. I want to thank the three of you very 
much for the work that you are doing, also for your testimony. 
We would like to keep in touch with you as this Committee's 
inquiry goes on. Thanks very much.
    I will now call on the second panel: Drew Hunter is the 
Executive Director of BACCHUS and GAMMA Peer Education Network; 
Chief Robert Nolan, Chief of Police of the Hamden, Connecticut, 
Police Department; Dr. Daniel Reardon, a parent; and Dr. John 
Welty, the President of California State University at Fresno.
    Thanks to all of you for being here. Dr. Reardon, thank you 
for coming forward after the tragedy you have been through. I 
appreciate very much your willingness to testify. I know it 
will be helpful to the Committee and I am sure it will be 
helpful to others who will hear about it, so we would welcome 
your testimony now.

       TESTIMONY OF DANIEL P. REARDON, D.D.S.,\1\ PARENT

    Dr. Reardon. Thank you very much, Mr. Chairman, and thank 
you for inviting me to this hearing. All I can say is that I 
would truly prefer not to be here to discuss the issues of 
binge drinking on college campuses and I prefer that my son 
Daniel be alive and that he be finishing up his examinations at 
the University of Maryland and that he and I would be 
discussing plans for the summer, for next year, and for his 
future.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Reardon appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    For him, there really are no future plans. He died on 
Valentine's Day this year and he died in an environment to 
where it was a fraternity hazing and he was basically killed by 
his friends in an initiation for fraternity. That is a specific 
subculture of this issue, but it certainly happened in the 
greater culture of binge drinking and the use of alcohol 
amongst our youth in our society. So that is really the issue 
that I want to talk to, is the issue of the pervasive culture 
of alcohol.
    As a parent, and both myself and Danny's mom were very much 
aware, certainly starting in grammar school and through the 
middle years in high school, of the extent of alcohol and drugs 
with our youth, but what I have to say is that the real concern 
of Danny's mom and I was the use of illegal drugs. I have got 
to say that alcohol really did not come up on the radar screen, 
up until my son's death.
    What is extraordinary about this is that, literally, in the 
weeks following my son's death, is that five parents in this 
similar group of friends and two patients in my dental practice 
came up to me to share with me the brushes that their sons had 
with acute alcoholic poisoning and almost the potential death 
of their sons. This absolutely stunned me and I realized that I 
was not alone in this and that people were not aware and 
talking about this problem.
    Of course, other groups and this distinguished panel of 
experts here, I am now becoming--I am not an expert in this, I 
am just a dad whose son has died as a result of this, but 
people are sharing these horrific statistics to which I, 
sending my son off to school, was just totally ignorant of, and 
he was certainly not aware of it, either, and I know he did not 
go off to college to die.
    So the experts are sharing the statistics of the rampant 
use of alcohol in colleges and I think this is extraordinarily 
important and I think it is important that light is being shed 
on this problem and that universities must move out of their 
denial. I am glad to hear that there are universities that are 
moving out of this denial.
    I went to Holy Cross College in Worcester, Massachusetts, 
and I just found out this weekend, that a student was assaulted 
and killed walking up a set of stairs on the campus. I mean, 
this is just awful. I know the tragedy that those parents are 
going to experience, going to retrieve the body of their dead 
son.
    And what is extraordinary about this is that this is 
happening to the best of our youth. This is not a subculture. 
This is the best of the best with parents who have the 
resources to educate and give the very finest to their children 
and they are dying in these statistics of 1,400 a year.
    I think what astounded me was to find out that 40 percent, 
or whatever the statistic, it is just horrific, are getting 
blind drunk once a week. I could not believe this. And the 
number of children in high schools that get drunk once a month, 
I think it is 25 percent. I was absolutely unaware of this.
    And so this is a social problem that is not happening just 
to the disenfranchised. It is happening to the best of our 
youth, from families that desire the best for their children 
and have the resources to provide it. Something is really wrong 
here.
    I am not an expert in these issues. I am only an expert on 
the anguish of sleeping on the floor of an ICU unit for 6 days 
while my son died, lay dying, which was every parent's 
nightmare and was totally preventable.
    So I have had a chance over the last several months to 
think about this and I think that universities--just as 
businesses have employee assistance programs--is that we need 
some type of student assistance program to help kids who are in 
trouble. But there has to be education and the kids have to 
know that they can call someone when someone is in trouble.
    I think that universities and fraternities need to control 
the environments they create. I think that the role of 
fraternities and sororities need to be seriously evaluated as 
to how they foster any educational role on university campuses 
and why, after so many years of knowing about this problem, 
they have done so little to prevent the tragedies.
    I am glad that the Federal Government is looking into this 
and becoming aware of the problem. It is a massive problem. 
Finally, I think the Federal Government is going to have to 
look at the role that they have in allowing the type of 
advertisements that the liquor industry has on TV. I have 
become very sensitized to this in the last 3 months, of what 
these advertisements are like.
    The thing is that my son was a level-headed kid. He wanted 
to go into the Foreign Service. He wanted to study economics. 
He wanted to be part of the Federal Government, and he is never 
going to have that experience.
    And so all I can say as a parent is that I am very glad 
that at a national level this is coming into the consciousness 
of the government and the people, and thank you very much for 
having me here.
    Chairman Lieberman. Thanks, Dr. Reardon. Thanks very much. 
Dr. Welty.

  TESTIMONY OF JOHN D. WELTY, Ed.D.,\1\ PRESIDENT, CALIFORNIA 
                    STATE UNIVERSITY, FRESNO

    Mr. Welty. Mr. Chairman, thank you for this opportunity and 
inviting me to participate in today's hearing. Tragedy often 
results in a call to action and it was the death of a student 
in the fall of 2000 at Chico State in California that caused 
Chancellor Charles Reed to appoint a 21-member committee 
consisting of presidents, vice presidents, faculty, students, 
and alumni of the California State University to look at our 
alcohol policies and prevention programs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Welty with attachments appears in 
the Appendix on page 58.
---------------------------------------------------------------------------
    The problem of student drinking is a complex one, as we 
have heard, but the question that was posed to the Committee 
which I chaired was simple and straightforward--how can we 
prevent any more tragedies? We set for ourselves goals that 
were perhaps bold and ambitious, but we knew from the outset 
that our impact was far-reaching because our system has 
388,000-plus students, 42,000 faculty located in 23 communities 
in California.
    We began our work in December 2000. We began by meeting 
with State and national experts who provided us with research 
and insights into the best practices across the country. From 
these discussions, it became clear that presidential leadership 
would play a critical role if we were to address this issue. It 
was made clear that California State University presidents must 
make this a priority on their campuses in a very demonstrable 
way. The ``Be Vocal, Be Visible, and Be Visionary'' statement 
from the national Presidents' Leadership Group established by 
the Higher Education Center for Alcohol and Other Drug 
Prevention is an example of what our committee envisioned.
    We also stressed the importance of developing a 
comprehensive alcohol policy at each of our campuses which 
would be aligned with this new systemwide initiative, and we 
also emphasized that once policies were developed, they must be 
consistently enforced. Student involvement in policy planning 
and program implementation was also identified as a very 
important part of our deliberation, and, in fact, students were 
major participants in the work which we undertook and made a 
major contribution to our end product.
    We also learned that it was important to have on our campus 
well-trained staff and that treatment programs needed to be 
available for those students who need them. And then we also 
learned that it was important that we gather data in a very 
systematic way to assess the nature and extent of the problem 
on our campuses.
    As a result of this work, we focused on six key areas: 
Comprehensive policies; consistent enforcement; education and 
prevention; training, intervention, and treatment; assessment; 
and then, finally, the development of adequate resources to 
sustain a long-term and comprehensive effort on our 23 
campuses.
    We also as a committee recommended that our campuses look 
at using the social norms approach as a prevention model, not 
exclusively, but as one key component. Peer education programs, 
about which you will hear shortly, were also stressed, along 
with the establishment of a broad range of campus and community 
partnerships that involve all stakeholders in the planning and 
implementation process.
    In July 2001, our Board of Trustees adopted the recommended 
policy, and in addition, the Chancellor and trustees committed 
$1.1 million for this current academic year to begin to 
implement the policies.
    Immediately following this effort, each of the campuses 
were expected to create a Campus Advisory Council that 
consisted of key stakeholders on the campus, and also members 
of our community, law enforcement, prevention folks, and even 
owners and operators of local liquor establishments. The policy 
also stressed the importance of these partnerships and placed 
an emphasis upon enforcing existing laws, decreasing the use of 
alcohol in the promotion of business and community events, 
reducing underage sales, and drastically curtailing promotions 
that encourage excessive drinking, such as happy hours and two 
drinks that can be bought for the price of one. We also focused 
on expanding alcohol-free recreational events for young people, 
both on and off campus.
    I mentioned earlier that one of the recommendations adopted 
by the board was that of a social norms approach. We undertook 
for all of our staff a conference sponsored in conjunction with 
BACCHUS and GAMMA this year that provided training in this 
area.
    But it is important, I think, to recognize that we took one 
additional step, and that was we partnered with six State of 
California agencies ranging from Alcohol Beverage Control to 
Highway Patrol, Office of Traffic Safety. That partnership has 
now yielded $2 million in support for programs on our campuses 
that will be very important as we implement this effort.
    Finally, I would like to comment on three suggestions that 
I might have regarding how the Federal Government might be able 
to assist in the efforts that we have undertaken.
    First, it is clear that we have much to learn regarding 
this complex and challenging problem and Federal support for 
high-quality and comprehensive research is desperately needed.
    Second, we desperately need to encourage individuals to 
enter careers in alcohol and other drug prevention and 
treatment.
    And finally, I urge you to evaluate existing programs that 
are currently funded and to change criteria in such a way that 
would allow institutions of higher education and governmental 
agencies to work together in partnerships to address this 
problem. Currently, there is a prevention from the ability to 
work together because of various regulations and restrictions.
    As a system, our California State University is committed 
to continue to address this problem. We know we have just 
begun, but our goal is to ensure that the last call will no 
longer be the final call for any of our students. Thank you.
    Chairman Lieberman. Thanks, Dr. Welty. That is a very 
impressive report. While my mind is focused on it, give me an 
example, if you can, of some existing Federal law or regulation 
that is preventing the kind of cooperation that you wisely 
would like to see.
    Mr. Welty. I certainly would be happy to follow up in a 
little more detail, but I think we found that in many grant 
programs, there are restrictions that either do not allow 
cooperation between a research program and campuses or other 
types of restrictions that narrow the focus of a program, which 
then does not allow for a comprehensive view of this issue on 
the campuses. I will certainly be happy to follow up with some 
specific examples.
    Chairman Lieberman. Thanks. That would be great. We are 
going to leave the record of the hearing open for 2 weeks after 
today for submissions of that kind, or if any of the other 
Members of the Committee wish to ask some questions.
    I am really personally proud to welcome Chief Robert Nolan 
here. I have known the Chief for a long time. He is a 
distinguished member of the greater New Haven community, where 
I have lived for more than four decades now, and has been on 
the front lines of dealing with this problem in response to, 
particularly, a series of tragic alcohol-related deaths and 
injuries at one particular school of higher education in 
Hamden, Quinnipiac University. Chief Nolan, thanks for being 
here.

   TESTIMONY OF ROBERT F. NOLAN,\1\ CHIEF OF POLICE, TOWN OF 
                      HAMDEN, CONNECTICUT

    Chief Nolan. Thank you for inviting me, Mr. Chairman. The 
invitation was really appreciated by me to have the opportunity 
to discuss this very serious issue of binge drinking on college 
campuses.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chief Nolan appears in the Appendix 
on page 77.
---------------------------------------------------------------------------
    Recent tragedies involving college students in my own 
community have prompted my department to work even more closely 
with university officials on several fronts to help curb what 
is a serious national public health and safety problem. While I 
have three universities within my jurisdiction, I would like to 
limit my testimony this morning to providing you with an 
overview of the close working relationship my department has 
forged with the university known as Quinnipiac University of 
Hamden, Connecticut.
    Before the current academic year, a year during which three 
Quinnipiac students were killed in alcohol-related accidents 
and an officer was seriously injured when struck by a student 
driving under the influence coming out of a house party, and a 
number of injuries occurred to individuals as a result of other 
alcohol-related accidents, my staff and I began meeting with 
Quinnipiac's management team.
    Through an open exchange of data and ideas, we have 
developed what I feel is a model for university and law 
enforcement relations as it pertains to alcohol abuse by 
college students. And yet, despite our educational and 
enforcement efforts, we were unable to avoid three families 
having their lives irreversibly changed when they lost their 
loved ones.
    As someone previously mentioned, they have met with the 
loved ones and mothers and parents of some of these students 
that were killed or injured in accidents. I have had probably 
the worst times in my career of 31 years having to speak with 
parents. I am, however, convinced that without the proactive 
steps we have taken in the areas of education and enforcement, 
even more fatalities or injuries could have resulted.
    I would like to share with you some of the programs 
currently in place as well as some additional measures that 
together we can take to address this national crisis.
    The Hamden Police Department's Street Crime Unit, along 
with our community police officers, present alcohol-related 
programs to the students at the university on a continuous 
basis throughout the academic year. The university also extends 
alcohol awareness and educational programs in resident halls 
that house Quinnipiac undergraduates. These educational 
programs are provided continually with special emphasis during 
National Collegiate Alcohol Awareness Week.
    In my opinion, the Quinnipiac University administration 
deals diligently and cooperatively with our department and 
responds with disciplinary action. This extends especially to 
students who violate the alcohol policy. Incidents of alcohol 
abuse off-campus are also dealt with in a swift and effective 
manner. This is particularly important inasmuch as these 
problems seem to have escalated in our town since students have 
been moved off campus. The recent relocation of senior students 
to off-campus housing certainly seems to have a direct 
correlation to the increase in alcohol-related accidents.
    The sophistication of fake ID operatives is staggering. 
Standardization of licenses or State or Federal identification 
cards and the ability of issuing jurisdictions to share 
information is imperative. A fake ID was found in the 
possession of a Quinnipiac student who was killed in an 
alcohol-related motor vehicle accident last month when his car, 
traveling at excessive speed, hit a tree and became airborne 
twice.
    Checkpoints have been proven as an effective deterrent to 
DUI. Increased funding for personnel and vehicles would allow 
local enforcement officials to expand checkpoints as they are 
not only a means of apprehending and enforcing, but also we 
find them a good manner in which to continue to educate 
students about the dangers of drinking and driving.
    Other programs that we have in place at the present time 
which the university has assisted us with is we use undercover 
officers going into the house parties and, in turn, making 
available to us the information needed to obtain search 
warrants which we serve on these particular homes, either 
college-owned or private homes that house students.
    The Hamden Police Department, in conjunction with 
Quinnipiac University, intends to implement additional programs 
in the effort to combat this problem, such as expanding the 
safe ride program which was developed, offering the police 
department's availability as a means of transportation with no 
questions asked when an individual may have to drive under the 
influence to get back to their housing. We are attempting to 
work with local taxicab companies to establish a reasonable 
reduced fare to transport students under these conditions, as 
well. These programs will be considerably more effective and 
widespread with the existence of Federal grant or State grant 
money.
    In addition, the Town of Hamden's Department of Police 
Service has reached an agreement with Quinnipiac University 
whereby in the beginning of the fall semester 2002, two police 
officers will be assigned specifically to the college campus, 7 
days a week, through different shifts. They will be used in a 
similar manner as the school resource officers are being used 
in public schools at the present time. They will interact with 
students and administrators in an effort to continue to educate 
and eradicate alcohol-related issues.
    Let me close by saying that I am not here today advocating 
prohibition. We cannot kid ourselves about the widespread abuse 
of alcohol by underage students. The ability to eliminate the 
consumption is almost impossible. We will continue to strive to 
reduce alcohol consumption, eradicate binge drinking, and 
eliminate DUI cases, most important, save lives. Additional 
education programs and enforcement efforts by the university 
and the Town of Hamden Police Department will be effective 
tools in this fight.
    I urge my colleagues throughout the country to form a 
campus-community coalition, work together with the colleges and 
universities in their community to increase awareness of binge 
drinking and promote personal responsibility among college 
students, the ultimate solution to this national problem. Thank 
you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Chief. That was excellent 
testimony. Is there any activity, to the best of your 
knowledge, for instance, in the National Association of Chiefs 
of Police along the lines you have talked about?
    Chief Nolan. There has been discussion. Since research has 
brought it to the forefront as it has, which, unfortunately, 
our particular town found out through experience, we are 
finding that we are having more injuries, accidents, and deaths 
from this particular problem than the illegal drug activity.
    Chairman Lieberman. That correlates with what Dr. Reardon 
said. The numbers at Quinnipiac are just stunning and really 
unsettling. I have been using the number four and you said 
three, but I think it is three deaths in this academic year and 
then I think there may have been one in the year before.
    Chief Nolan. In a combination of motor vehicle accidents 
and alcohol poisoning, we have had over the last several years 
approximately five.
    Chairman Lieberman. And just to highlight something you 
have said, your observation is that the problem is more intense 
as the number of students living off-campus increases.
    Chief Nolan. Quinnipiac, due to expansion, has moved 
almost, if not all, of their senior and graduate students off 
campus. We have found in going back and reviewing our records 
that the accidents and problems with DWI began to increase 
substantially as this took place.
    Chairman Lieberman. Dr. Welty, while we are on this, is the 
pattern that Chief Nolan has described of the campus-community 
relationship, here in this case between the university and 
police department, typical of what is happening in California 
under the State University system plan that you have discussed?
    Mr. Welty. It is a key part of our plan and it actually, 
with the support we have now received from the State agencies, 
they are encouraging highway patrols, and city police to work 
with us much more closely. As we reviewed this problem, it is 
clear to us that integration needs to occur in each community 
if we are going to be effective.
    Chairman Lieberman. Thanks. Drew Hunter, thanks for being 
here. Tell us about your organization and what we can do to be 
helpful.

 TESTIMONY OF DREW HUNTER,\1\ EXECUTIVE DIRECTOR, BACCHUS AND 
                  GAMMA PEER EDUCATION NETWORK

    Mr. Hunter. All right. Mr. Chairman, it is a great honor 
and privilege to be here, as well. I guess I get to close for 
the panel.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hunter appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    I am here today as the Executive Director of the BACCHUS 
and GAMMA Peer Education Network, a 27-year-old student 
leadership organization focusing on alcohol abuse prevention 
and related student health and safety issues. We presently have 
affiliates on more than 1,000 colleges and universities and our 
organization is all about partnerships and we have been working 
on this issue since the last time the NIAAA spoke out on this, 
which was their 50 Plus 12 project in the early 1970's, and 
that was actually the founding of much of what our organization 
has begun.
    Before getting to the heart of my remarks, I am pleased 
that there was a panel from this College Task Force of the 
NIAAA. Their recent report on college drinking is a significant 
achievement because it supports many of the strategies that our 
organization has been advocating for some time, including the 
importance of engaging student leadership on this topic through 
peer education. This report will be very helpful in the 
upcoming academic year as we press our host campuses for more 
attention to this important issue. Being that there were no 
students on the panel today, I will try to play that role, 
despite my advancing age.
    From my experience, there are really four key components of 
a successful campus alcohol prevention program that need most 
attention. The first is a strong need of a commitment from 
campus presidents and their administrations. Simply stated, 
college presidents and their administrations must prioritize 
their commitment and resources to work on this issue so that it 
is truly a vital part of the campus mission.
    I am pleased to share time on this panel with Dr. John 
Welty, President of Fresno State. Having personally 
participated in the CSU effort led by him and Chancellor Reed, 
I am comfortable that his testimony covered this comprehensive 
approach in greater detail, so I will move on.
    But before I do, it is important to note that despite all 
the publicity this issue has received, we know there are many 
colleges and universities that still do not support a full-time 
alcohol educator or staff person dedicated to these efforts. We 
know there are many campuses that have higher budgets for one-
time events, like homecoming, than they do for year-round 
alcohol education program. And we know that there are some 
colleges and universities that have solid alcohol policies 
written in their student handbook, but the policies are seldom 
put into practice on campus, and that is where our troubles 
begin.
    As I say to you, as long as this remains true, then it is 
also true that reducing alcohol-related harm is not central to 
those campuses' missions, and this disparity in addressing the 
issue is why we need leadership from the top down, and again, I 
want to commend Dr. Welty and the CSU system.
    No. 2 is a strong campus policy and the willingness to 
enforce that policy. As usual, whenever you are faced with a 
complicated case here in Washington, the answer is not 
automatically that more policy is needed. Nor is a federalized 
one-size-fits-all national policy going to work for the diverse 
number and types of institutions out there. But it is the 
commitment to use the policies that are already in place that 
will solve many of our problems. This is what our campuses need 
to do on an individual basis to better address this issue.
    At the risk of creating a sound bite, campus policies and 
student service programs really can be narrowed down to a 
simple message that needs to get out to our students and their 
families, the simple message of get smart, get help, or get 
out.
    What I am talking about here is the need to get smart. If a 
student gets confronted for underage drinking or drinking in a 
high-risk fashion, the campus needs to first give them a chance 
to get smart. We must start by forcing these students to get 
mandatory education on the alcohol issue.
    Then get help. If a student continues to break policy a 
second time, we need to respond in a caring and compassionate 
way by offering that student a chance to get help. We need to 
meet with these students and, where permissible and 
appropriate, engage their parents in the discussions and offer 
these students assessment services and counseling.
    And finally, to get out, and this is sometimes a tough one. 
But if students continue to drink in a high-risk fashion and 
are unwilling to change their behavior, we have to have the 
power to say, get out. Being dismissed from school would get 
their attention and may influence their understanding that they 
have bigger problems. And as importantly, it says to the rest 
of the student body, this type of behavior is not acceptable 
here.
    No. 3, any successful program must include student peer 
education. Everyone working with young people knows that we 
have to impact students in their peer groups. We need to engage 
students to be leaders, role models, activists, and caring 
friends when it comes to stopping alcohol abuse. When students 
do get involved in the issue through peer education, there are 
some things that we can count on.
    We know that peer educators make healthier choices 
themselves and they are comfortable confronting others about 
high-risk behaviors. We know that a significant percentage of 
students say they would rather talk to a peer instead of a 
professional counselor about troubling issues. And we know that 
students learn a great deal about the culture of the 
institution from watching their peers for clues of what is 
acceptable and what is not.
    Therefore, we must continue to advocate and support these 
peer educators as a vital part of the alcohol education 
process. Let us face it. They are there long after the 
administrators have gone home for the day. They can make a 
difference when it is needed.
    And finally, No. 4, we need to market healthy norms to our 
students. It is simply a fact of life that you will get much 
more attention with a headline or lead story that says, 
``Students Are Out of Control and Dying,'' than you will with 
one that says, ``Most Students are Doing Just Fine.'' But you 
know what? The real truth of the matter is that most college 
students balance their bottles and books. According to the 
American College Health Association data, significantly more 
students leave our institutions due to health and financial 
problems than drinking problems.
    Social norms, as highlighted by Dr. Welty, is a prevention 
tool that works by using actual student behavior to market the 
healthy norms, such as broadly sharing a wide variety of 
messages that the majority of the students are making healthy 
choices.
    Where this has been used, such as institutions like Hobart 
and William Smith College in New York, they saw a 40 percent 
drop in their high-risk drinking over the course of just 4 
years. Northern Illinois University saw a 44 percent drop over 
the course of 10 years.
    Chairman Lieberman. What kinds of programs were those?
    Mr. Hunter. These are social norms-based programs, which 
are marketing campaigns looking at the actual student data, and 
then they develop widespread marketing campaigns from the time 
you enter campus to the time you graduate, marketing health, 
really trying to promote an environment or a culture on the 
campus that the majority of the students do not drink in ways 
that cause harm to themselves or others.
    Chairman Lieberman. Is it marketing health generally or is 
it specifically dealing with the dangers of alcohol?
    Mr. Hunter. The dangers of alcohol primarily is where we 
have seen this, though you are beginning to see this approach 
using a variety of other issues, including tobacco, illicit 
drugs, and on diversity and acceptance issues in higher 
education, as well.
    Chairman Lieberman. And again, these programs cover all the 
students. This is not just kids who have had some problem.
    Mr. Hunter. No, these are broad. This would be literally 
from the moment you enter the campus, you will see the same 
type of advertising or marketing you might see on broader 
topics or whatever. You will see messages, posters, websites, 
all sorts of stuff promoting the broader health of the student 
body, using the student data that they have taken from the 
established surveying techniques, and it was also highlighted 
in the NIAAA report as one of the areas to look at.
    Chairman Lieberman. Just go over then, again, the results 
that you cited.
    Mr. Hunter. Sure, and there are a large number of campuses 
that have done this, but highlighting two, Hobart and William 
Smith College saw a 40 percent drop in their high-risk drinking 
over the course of 4 years, and that is the binge drinking 
definition that was talked about earlier. Northern Illinois 
University saw a 44 percent drop over the course of 10 years 
using this technique, and I will say this technique is part of 
their comprehensive program----
    Chairman Lieberman. So these colleges may do other things, 
as well, perhaps cooperating with local law enforcement?
    Mr. Hunter. Absolutely. In fact, the Northern Illinois 
University, they have gone to law enforcement and looked at 
their data. Not only have they reduced the reporting of these 
high-risk drinking levels, but then they have also seen the 
concurrent drops in a lot of the reported crimes and injuries 
and things of that nature, including, I believe, sales of 
alcohol in the community in some of those areas.
    Chairman Lieberman. Have you finished your testimony?
    Mr. Hunter. Actually, I had one more point I was going to 
make, but then----
    Chairman Lieberman. Go right ahead. I interrupted you.
    Mr. Hunter. No, I appreciate your input.
    Finally, I do want to address something that we have heard 
a few times today and that is when we spend too much time 
highlighting the problem, college students binge drink. We 
mistakenly are feeding into the misperception that this is what 
campus is really like, which is why many of us in the higher 
education community refrain from using the popular yet 
misguided term ``binge drinking'' in describing student alcohol 
use.
    First of all, when you think of going on a binge or being a 
binge drinker, what comes to mind is someone who really needs 
help, who is out of control. Yet the current definition of four 
drinks if you are a woman, five drinks if you are a man, during 
one sitting in a previous two-week period does not necessarily 
match that perception. In addition, the definition conveniently 
labels one-half the students, nearly one-half of the students 
as being high-risk while ignoring the very factors that 
contribute to alcohol intoxication and risk. The overuse of the 
term ``binge drinking'' has really become a joke on campuses as 
far as many students and really some administrators are 
concerned.
    It would be more productive if we would focus our efforts 
to talk about those students who drink and put themselves or 
others at risk by engaging in unsafe behaviors. When engaged, 
college students are likely to support efforts to reduce 
drinking and driving. They want to reduce incidents of sexual 
assault on their campuses. They want to reduce noise in their 
living areas, and they want to deter vandalism and violence on 
campus.
    We have had great luck in making students part of the 
solution on these issues, but we have to engage them in the 
process and bring them along with us. Thank you very much.
    Chairman Lieberman. Thanks, Mr. Hunter.
    Chairman Lieberman. You know, it is interesting. You quoted 
at the end something I saw in your prepared testimony and I was 
going to ask you about, which is the statement, ``when you 
think of going on a binge, what comes to mind is someone who 
really needs help, who is out of control. Yet the current 
definition of four drinks for a woman and five for a man during 
one sitting in the previous 2-week period does not necessarily 
match the perception.'' What do you mean? I think most of us 
would assume that is a lot of alcohol at one sitting.
    Mr. Hunter. Sure, and please forgive me. In a 5-minute 
testimony, you cannot always go into the details you would like 
and we would be the last organization to not talk about this as 
a very serious problem. It is what we are about. It is what we 
do.
    But the problem with the binge drinking definition as it is 
currently put out there, and it has been useful as a benchmark 
when we are looking at measuring programs, but it does not put 
some of the factors that impact intoxication, or as our Chief 
of Police over here would talk about, things that you can 
measure from a BAC. Sure, five drinks in an hour is a lot of 
alcohol and virtually any one of us on this panel would be at a 
level where we would be looking at a BAC where we would not be 
safe to drive a car.
    But the definition does not ask about time. It does not ask 
about size of the person drinking, whether they have eaten, a 
lot of the factors that will involve your BAC. So what it does 
is it conveniently captures as large a portion of students as 
possible for purposes of raising attention to this issue. But 
the same student that may drink those five drinks in an hour 
and starts seeing their BAC going off the chart, the student 
next to them may drink those five drinks over a 6- or 7-hour 
period watching two sporting events. The definition has no way 
of breaking that out and is why a lot of researchers will not 
use it and why a lot of students discount it.
    Chairman Lieberman. I see. So if we can focus, it is the 
one sitting part of the definition that is bothering you 
because you would prefer to judge it by some standard of blood 
alcohol content.
    Mr. Hunter. Correct, because I think that would be 
something that we clearly could say that at this level of BAC, 
these types of things are likely to happen. And I just think 
sometimes, particularly if you are looking at the social norms 
approach which has shown some effectiveness, the more we 
highlight the problems going on, the more students who are 
coming to the campus believe they have to drink that way to fit 
in.
    Chairman Lieberman. Yes.
    Mr. Hunter. And that is really part of the peer acceptance 
formula that causes some problems.
    Chairman Lieberman. What is your reaction to the discussion 
we had with the last panel on distinguishing binge drinking, 
whatever you want to call it, from the broader problem of 
alcoholism in our society, or is there a distinction?
    Mr. Hunter. Well, the binge drinking definition, as it is 
used, I do not think is a gauge for alcoholism. The problem 
with, again, the term ``binge drinking'' is that people assume 
when you are talking about a binge, you are talking about an 
out-of-control episodic blackout type drinking, which, again, 
is not necessarily--some of the students in that binge drinking 
definition may go ahead and do that that evening, but it is 
not, again, the 40 percent. A significantly lower percentage of 
the students would be qualifying in that.
    At the college age, it is rarer to have the full alcohol 
dependency diagnosed, but certainly these types of patterns, 
unchecked and unchallenged in college, can lead to the 
development of alcoholism over time, and some of our college 
students do come to us already with full alcoholic tendencies, 
needing of treatment and other services, and more of our 
campuses need to provide those services and assessments and 
help us find those and get them out of the system and properly 
treated early on.
    Chairman Lieberman. Dr. Reardon, I agree with everything 
you said, but one of the things you said earlier, stunned me, 
as well as the 40 percent of students who say that at one point 
or another they were binge drinkers. What year was your son in 
at the University of Maryland?
    Dr. Reardon. He was in his freshman year.
    Chairman Lieberman. Freshman year. To the best of your 
knowledge, this was not a situation where he had what might be 
called an ongoing drinking problem?
    Dr. Reardon. No.
    Chairman Lieberman. This was exactly the nightmare we are 
discussing, which was an episodic or momentary situation where 
he drank to excess?
    Dr. Reardon. Well, he was in a fraternity at that time and 
he was pledging.
    Chairman Lieberman. Yes.
    Dr. Reardon. And the Sunday before, he told me that in this 
initiation, there would be no alcohol. So to get that phone 
call at 5 o'clock in the morning on Friday morning, it was, of 
course, every parent's nightmare, my nightmare.
    Chairman Lieberman. Right. Go ahead.
    Dr. Reardon. But further than that, it is a culture, it is 
a subculture of what is going on in campuses, and it appears 
that what happened that evening--and it is under investigation, 
I do not have all the facts, but it appears that after a 
certain amount of alcohol consumption is that a beer funnel was 
put into his throat and then a half-a-quart of bourbon was 
poured down his throat. And then when he passed out with the 
fire barn or whatever, the EMT 200 yards away, no one called.
    And this is something that you said, Mr. Hunter, is the 
ability--and also Dr. Welty--is that kids can get help and that 
there were kids in that fraternity who were afraid to call 
either because Danny would get thrown out of school or they 
would get thrown out of school, and so they let him pass out.
    Chairman Lieberman. What has the response been of the 
university so far?
    Dr. Reardon. None.
    Chairman Lieberman. Really?
    Dr. Reardon. I have had no contact.
    Chairman Lieberman. None at all?
    Dr. Reardon. I received a letter from the president of the 
university and he stated that every now and then, a kid's luck 
runs out and Danny's luck ran out. I thought it was just a 
terrible response to his death.
    Chairman Lieberman. To the best of your knowledge, no 
disciplinary action has been taken against the fraternity?
    Dr. Reardon. The fraternity, the house has been suspended.
    Chairman Lieberman. It has. And is the university doing the 
investigation or are the police doing it or both?
    Dr. Reardon. It is being investigated by the Prince Georges 
County police, and I believe the university police are 
cooperating with the official investigation by P.G. County.
    Chairman Lieberman. Am I right that this just happened in 
February?
    Dr. Reardon. This happened in February, on February 8, yes.
    Chairman Lieberman. Let me ask you, just to talk a little 
bit more, you spoke during your opening statement about whether 
there is anything you would--of course, this just came out of 
the darkness of night with you, but whether there is anything 
you would tell parents of kids now to look for or demand from 
their universities and what you would hope colleges would do to 
try to protect other kids from this kind of tragedy.
    Dr. Reardon. Given the amount of time that Danny's mom and 
I spent on this issue with our kids, I really do not think that 
parents can really effectively intervene once the kids go off 
to college. And I have got to say that what Dr. Welty is 
saying, and also Mr. Hunter, as to how they are trying to 
respond and help kids, I think this is absolutely critical and 
I know that none of that existed on the University of Maryland 
campus, and so I am very pleased to hear that this is 
happening.
    Chairman Lieberman. You and Dan's mom had talked to him and 
your children about alcohol abuse?
    Dr. Reardon. Yes. But I do have to say is that our focus 
really was not on alcohol.
    Chairman Lieberman. Yes.
    Dr. Reardon. We were much more concerned about the use of 
marijuana in high school.
    Chairman Lieberman. I bet that would be the case of most 
parents in America.
    Dr. Reardon. Yes. It just was not on the radar screen.
    Chairman Lieberman. Thanks, Dr. Reardon.
    Dr. Reardon. You are welcome.
    Chairman Lieberman. Dr. Welty, what about the extent to 
which--I mean, you have given us a case where the California 
University system had a death and just committed itself to 
doing everything it could to make sure nothing like that 
happened again and you are dealing with a large, very 
prominent, high quality system. How would you describe the 
extent of awareness and commitment to do something about this 
problem we are talking about, alcoholism, binge drinking on the 
campuses, among your peers throughout the country, among the 
administrators of the colleges and universities in America?
    Mr. Welty. I think there is variation, but I would say, 
based on my experience in four other States, there is concern 
about this issue. I do think that one of the things that we 
need to focus more clearly on, and has been mentioned already, 
and that is the need for a comprehensive approach to this 
issue. It is not just having a policy, but it is a policy that 
is enforced, complemented by a strong education and treatment 
program, and then an ongoing review of how we are doing. I do 
think there is a need, probably, for us all to be continually 
reminded of the importance of this issue, but I do think it is 
a concern among certainly my counterparts across the country.
    Chairman Lieberman. Does the California State system have a 
plan for evaluating results under the program you put into 
effect?
    Mr. Welty. Yes, we do. There is a requirement that each 
campus reports to the board every 2 years, both evaluating what 
we have done but also looking at the progress that we are 
making addressing the issue on our campuses. This is our first 
year, so next year will be the first of those reports.
    Chairman Lieberman. Do I understand correctly that your 
campus and others in the system are using the social norms 
approach that Mr. Hunter described?
    Mr. Welty. Yes. Most of our campuses are using that 
approach, again, not as the only effort but as one of several 
efforts that are being undertaken as part of the prevention and 
education program.
    Chairman Lieberman. Chief, did you want to add something?
    Chief Nolan. I totally agree with the other gentlemen on 
the panel, but there are a couple of areas that we found in 
Hamden. One, I prefer not to use the word ``campus.'' In our 
experience, the least amount of problems are on campus. It is 
off campus that we have the problems with the students. So it 
is more a university-student problem. What takes place on the 
campus usually does not create the problem off the campus. The 
deaths take place off the campus. The accidents and injuries 
take place off the campus.
    I think, I know I have and I know Dr. John Lahey has, it 
finally became aware to us that there are several groups that 
have to work together. There has to be the community, the 
police department, the college administrators, and the parents. 
I have been at meetings and conferences where people try to 
bear all the responsibility to the parents or to the college or 
to the police department. It is a combination of all.
    I know there are certain areas that colleges have problems. 
One of these accidents involved a student, and when I met with 
the parents, they had no idea that this student had an ongoing 
problem with alcohol binge drinking. To this day, I cannot 
imagine the shock when autopsy reports came back for this poor 
woman, none whatsoever.
    It should be incumbent upon the universities to make 
parents aware of this if there is an ongoing problem or if they 
are having a problem with their child. There are certain things 
that come into play on privacy and what have you. This young 
man or person may still be alive if the parent had been aware 
of the situation.
    Chairman Lieberman. Right.
    Chief Nolan. That is the area that I become concerned, 
where we have found with several of the universities we have 
met with that they want to keep everything in-house. They want 
to keep it very quiet. That is not going to work. It is just 
not going to happen. And to take disciplinary action or have 
policies governing the students' activities off campus, I think 
is as important, if not more important than on campus. I know 
of universities in our area that if the incident takes place 
off campus, no action is taken against the student on campus. 
It is not their responsibility, not their concern. They have 
major problems with that.
    Chairman Lieberman. Those are very important points. 
Obviously, we send a message of how seriously we take something 
if we attach a penalty to it.
    Mr. Hunter, what is your impression about--your program is 
on a lot of campuses around the country. Maybe the ones you are 
on answer the question I am going to ask, but my impression is 
exactly what Chief Nolan has just said, that there are colleges 
and universities that are in denial to one extent or another 
about this, either because it is such a difficult problem, 
human problem, or it is dismissed as just what happens, 
unfortunately, tragically, to kids when they are in college, or 
they do not want to publicize it because they are concerned 
about the impact on the school's reputation. What is your 
experience with all that?
    Mr. Hunter. I think there is a certain amount of difference 
campus to campus, and the reason, even though I was asked to be 
here specifically on the topic of peer education, that I wanted 
to reiterate the leadership needed from the college presidents 
is because so many more things happen when you get the college 
president involved.
    I could tell you scores of campuses and dedicated student 
leaders and prevention professionals that were operating in a 
vacuum and literally holding bake sales to raise money to do 
the types of programming, to get people more aware of alcohol 
poisoning, try to change policies on campus so that students 
are not discouraged from addressing a passed-out student and 
getting them help because of fear of getting in trouble.
    That is one of the issues we have tried very hard to push, 
is that if a student has drunk themselves to the point where 
they are passed out, where there is any concern over their 
health, get them help immediately. We are trying to get 
amnesty-type policies in the residence halls so the students 
that do that then are not in fear of being penalized or for the 
student themselves. At least we have gotten the student to the 
hospital and addressed the situation.
    But it varies a lot campus to campus. The awareness to the 
issue is huge, and in this day and age, there is no excuse, I 
think, for presidents not to be making this a central part of 
their mission because we have got to protect the lives of the 
students and the people in the community where our campuses 
are. It seems to be getting a lot better, but funding, 
particularly in these days with State cutbacks, I expect next 
year is going to be a very hard funding issue for a lot of 
institutions and programs like ours are the ones that you start 
seeing impacted because we are not always seen as the core of 
the academic mission of the campus.
    Chairman Lieberman. Are programs usually funded by the 
universities themselves?
    Mr. Hunter. Yes. Our peer education groups, in order to be 
affiliated with us, must have a faculty or staff advisor of the 
campus, who is employed by the campus, working with the group. 
It must be a recognized student organization, either through 
the student government or through whatever student affairs 
department would be hosting it, and their funding generally 
comes from their health education-type budgets or student 
government or student activities fees. But when they have to 
rely on just student activities fees, often they are doing 
supplemental fundraising, which make it very hard for them to 
have the type of resources to address the issues that they want 
to dedicate themselves to.
    Chairman Lieberman. Thanks. I am very pleased to have been 
joined now by Senator Tom Carper, my colleague from Delaware, 
an important member of the Committee who was, before coming to 
the Senate, the Governor of Delaware. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, thanks so much, and thank you 
for holding this hearing. To our witnesses today, we appreciate 
very much not just you joining us but your efforts in these 
areas.
    The issue of binge drinking comes close to home for a lot 
of us. My wife and I are raising two boys, 12 and 13, and the 
only binge drinking we worry about in our house is chocolate 
milk shakes right now, but in a few years, we will probably 
have some further worries to take into account.
    I went to graduate school at the University of Delaware, 
but I went to Ohio State as an undergraduate and was a member 
of a fraternity there which actually runs a national campaign 
that focuses on trying to reduce the incidence of drinking 
among its members. But at my old fraternity house at Ohio State 
about a year or so ago, we had a student who died, I think in a 
room that I used to live in when I was an upperclassman at Ohio 
State. So this is one that comes close to us, and I think he 
died from a combination of drinking and taking drugs. Our 
chapter has since been closed at Ohio State and we will have to 
see what happens in the future, but that young man's life has 
been snuffed out. This one comes close to home.
    At Ohio State and the University of Delaware and all kinds 
of colleges around the country, we have not only students from 
the United States of America, but we also have students from 
other countries. We similarly have American students abroad in 
colleges throughout the world.
    I was wondering if we have some sense of whether colleges 
and universities in other countries face a similar kind of 
problem with binge drinking. Is this strictly an American 
phenomenon or is this something that is happening on college 
campuses around the world?
    Chief Nolan. If I could just--and it is not scientific or a 
study, I happened to be at a meeting with some representatives 
from law enforcement overseas and asked that specific question. 
The only answer they really had, they certainly do have some 
problems related to drinking, but they do not see it as we do. 
The only reason they could give me was that in certain areas, 
they are brought up in a different culture, and in many cases 
are exposed to alcohol at a much earlier age than here. Their 
reasoning was that when they got to the point of university, it 
was not a big deal to them. It was not something that they had 
the first opportunity to experience and they do not run into as 
many problems. Whether that is factual, true or not, that is 
the explanation I was given by law enforcement people from 
overseas.
    Senator Carper. Yes, sir. Thank you.
    Dr. Reardon. Senator, my son last year at age 18 traveled 
to Europe by himself and he visited 15 countries and I tied up 
with him in Budapest. One of the things he said to me, as a 
student, he was really astounded at the European students. He 
said, well, they seem to have this alcohol thing--he used the 
word ``booze''--he said they seem to have this booze thing 
under control. He said, why is it so crazy back home? And I 
said, well, that is an issue when you come back to the United 
States you are going to have to deal with because it really is 
crazy. So he was very aware of this and aware of the 
difference. He lived with a Swiss family and he traveled 
throughout all of Europe. So I think that is a significant 
question to answer. Why is it out of control here, or why are 
these issues----
    Senator Carper. Did he have any observations, any thoughts 
as to why that is the case?
    Dr. Reardon. No, it was just one of these casual 
statements. But the other thing Mr. Hunter is saying is that 
there are universities that really are working on this and 
there are other universities that are not. The extraordinary 
thing about the University of Maryland is that there was a 
death also in a fraternity house just two houses down from 
where my son died just 5 months previous to this. So it seems 
as if on some campuses, the death of a child is OK. I am 
listening to Dr. Welty here and one child dies and everyone 
comes down like a SWAT team, that even one child is too much. I 
just think that is an extraordinary approach. I wish every 
campus in the United States would look at this with the 
severity that one child's death is just simply too many.
    Senator Carper. Mr. Hunter.
    Mr. Hunter. Back on the international issue, our 
organization is an international organization. We work with a 
network of more than 100 campuses in Canada, a network of 
campuses in Mexico dealing particularly with the impaired 
driving issue there, and then Australia, New Zealand, and a few 
other scattered places around the country.
    The differences in how they do their program tend to be 
more drinking age related, that their college students are 
already of legal age to drink in those countries, so they 
always have to amend the types of stuff we do here because we 
are obviously concerned a bit more with the illegality factor 
when we put our stuff together.
    I think Canadian institutions, from some of the data I have 
seen, have seen very similar issues that we are, and because of 
the rural nature of a lot of the colleges in the Canadian area 
and the drinking to major cities, they are doing quite a bit on 
the impaired driving.
    But what we have not seen as much, and granted, it is still 
a fairly rare instance here in the United States, but the 
alcohol poisoning, drinking themselves to death type situation 
does not seem to be as apparent in other countries, which may 
or may not be the fact that their cultures seem to have 
ingrained it more in their everyday life versus the extreme 
behaviors that we see. I think a lot of our students are going 
out and drinking in the community in a very fast and 
irresponsible manner, partly because they are afraid Chief 
Nolan's people will be finding them and arresting them. So much 
of our drinking goes on in unsupervised, unlicensed, 
unregulated environments that I think that is certainly part of 
the concern that we are seeing.
    Senator Carper. Have you all had a chance to look at the 
incidence of binge drinking by foreign students who come to 
this country, who come from different cultures? How do they 
behave? Do they behave similarly or differently from Americans 
who have grown up here within our own culture?
    Mr. Hunter. I am not aware of any specific studies or data 
to that. Ancillary, I do not think foreign students are causing 
the majority of the problems on our campuses that we are 
seeing.
    Senator Carper. My guess is you are probably right. Anyone 
else, any thoughts? What I am getting at here is, is this a 
peculiarly American problem? We have laws that are designed, 
State laws that I helped to enact and Federal laws that we have 
enacted, too, that are designed to try to make sure that young 
people do not consume alcohol. They cannot buy it until they 
are 21 years of age. A lot of times, we find that young people 
are getting alcohol anyway, drinking illegally, sometimes under 
those ages, and sometimes 21 and older drink excessive amounts 
of alcohol.
    Meanwhile, over in Europe and other places, where 
apparently, and I have heard this anecdotally as well, families 
introduce their young people to wine or to other alcoholic 
beverages at an earlier age, and as a result, there is less 
fascination with it when kids turn 18, 19, 20, or 21.
    My sense is, my gut tells me this is something that we need 
to be aware of and to be mindful of. I say that as an old 
Southern Baptist who grew up in a teetotaling family and who 
still does not consume much more than a glass of wine from time 
to time.
    One other issue I would like to raise, Mr. Chairman, if I 
could, with these witnesses is the issue of identification. I 
do not know if you have already talked about that or not. Have 
you?
    Chairman Lieberman. Chief Nolan talked somewhat about a 
program that they have put into effect in the area to deal with 
fake IDs, but it is a relevant question.
    Senator Carper. We have spent a fair amount of time in 
these halls since September 11 talking about identification--a 
national identification card. I have said in a number of 
responses to the media who have asked me if I thought it was a 
good idea, I said if those ID cards were not much better than 
the fake ones that kids are using at the University of 
Delaware, or other college towns, to purchase alcohol, it may 
not provide all that much in the way of enhanced security.
    What are your thoughts with respect to improved IDs, 
biometrics or whatever they call them? What is the term for the 
ID cards that use some part of our physiology, biometrics?
    Chief Nolan. The ID situation is probably one of the 
largest part of the problem that we have in our area. To give 
you an example--also another part of the ongoing program we 
have--we check the local establishments, the bars, at least 
twice a week, sometimes more often. We have been in barrooms 
that would hold maximum tight 50 people and find 35 to 40 of 
them with fake IDs, underage drinkers, students in the 
particular establishment. This one in particular, I can tell 
you, videotapes the people coming through the door, checks the 
IDs, makes them sign an affidavit, and he has told me that he 
is ready to just shut the doors. The IDs are so well done that 
our officers have a hard time sometimes.
    I maintain, especially after September 11, that there 
should be some type of standardization for a driver's license 
nationally and/or national ID cards with either a metallic 
strip or bar-coding where an establishment can run it through 
just like a credit card and immediately know whether it is a 
legitimate ID and the age on it.
    The other thing we are doing is we are changing some of the 
charges. Prior to this, and again, this is where I think 
parents would help a university, if we find them with a false 
ID, they were charged with procuring liquor by a minor or what 
have you, which is nothing of a major charge. We are starting 
to bring forgery charges against them or altering of government 
documents, which creates a court situation, because we are 
getting so inundated by these problems.
    The other charges, we have had parents actually, where we 
charged individuals underage with--an example I can think of is 
two cases of beer. The individual was charged with possession 
of alcohol by a minor. We had complaints filed against the 
officers and what have you for violating the individual's 
rights and the parents actually came to the university and 
wanted the two cases of beer given back to their son, who was 
18 years old.
    So I think that is where we have a gap here, that everyone, 
all three entities have to work together. But IDs are a major 
problem, a major problem, and that is where it all starts, that 
they can get into the establishments, they can go into the 
liquor stores and purchase whatever they want. I cannot blame 
the business. It is a business problem also. I can tell you, I 
will show you some of these IDs and I defy you to tell me that 
they are phonies.
    Senator Carper. Are there any best practices that you could 
point us to, either States or cities or counties, where they 
are doing an especially noteworthy job in this regard?
    Mr. Welty. I am familiar--and actually, a number of 
campuses use student IDs that are bar-coded now for a variety 
of purposes, which allows students to deposit so much money to 
purchase food, those kinds of things. We are actually exploring 
through our council that I mentioned earlier, as a result of a 
request from some of our local bar owners of allowing--
essentially, they are using a reader in their establishments 
which would automatically allow them to determine whether the 
student is of age or not. Again, I think that is something that 
is worked out best in a local community environment. But the 
technology, I think, does exist where that is possible to do.
    Chief Nolan. As the Doctor said, most of it is already 
available. I know the State of Connecticut's driver's licenses 
are all bar-coded at the present time. They just have not moved 
forward to a point where an establishment can easily read this, 
which the technology is available and it is really not all that 
expensive to get into.
    So I think it has to be looked at on a national basis for 
not only the alcohol problems but for other problems and 
something set up where it would work nationally. But I would 
assume most States have the identification process in place, it 
is just starting to use it.
    Senator Carper. Mr. Chairman, thanks, and again, to each of 
you, thank you for your good work in this regard. Thank you.
    Chairman Lieberman. Senator Carper, thank you. Thanks for 
taking the time to be here and for your interest in this 
problem.
    I thank each of you. You have been very helpful. We have 
learned a lot. I hope we have drawn some attention to the 
problem. The statistics are shocking, and Dr. Reardon, thanks 
for having the strength to come and make these numbers 
painfully real. If I had to say in one sentence what we ought 
to try to be about, it is to have a national policy that 
engages universities, educators, parents, students, and law 
enforcers to ensure that no parent has to experience the 
nightmare that you have been through. Your willingness to come 
and talk to us about it today brings us a little bit closer to 
that.
    We are going to go on with these hearings and have at least 
one more. There have been some references to the alcohol 
industry. I want to call them in at the next hearing. It would 
probably be good to have a student, maybe one who had a close 
call or is involved in campus work on this subject. We are 
thinking of having somebody who is either from the 
entertainment industry or can comment on the messages that may 
be sent by the entertainment culture about substance abuse, 
including alcohol.
    And then perhaps a medical professional. We had a call 
after I announced these hearings in Connecticut from a doctor 
in the emergency room at Yale-New Haven--a hospital, 
unfortunately, that has treated a few of the students who have 
come in from the universities in the area and the hospital has 
some opinions.
    I urge each of you to think--and as I said, we are going to 
leave the record of the hearing open for 2 weeks--I want to see 
if we can get the Federal Government to be helpful here, to be 
constructive. There have been a few interesting ideas 
specifically regarding more funding for particular programs. 
Just be very aggressive about giving us your best ideas.
    In the meantime, I thank you for your time and for all you 
have contributed today. For now, we will adjourn this hearing.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    I think we all agree that binge drinking is unacceptable and risky 
behavior. The report by the Task Force of the National Advisory Council 
on Alcohol Abuse and Alcoholism has some disturbing statistics.

    It says that:

  <bullet> L1,400 college students die each year from alcohol-related 
injuries;

  <bullet> L2.1 million students drove under the influence of alcohol 
last year; and

  <bullet> Lmore than 600,000 students were assaulted by another 
student who had been drinking.

    Unfortunately, alcohol abuse can lead to abuse of other substances. 
According to a survey by the Substance Abuse and Mental Health Services 
Administration at ``HHS'', underage binge drinkers were seven times 
more likely to use illegal drugs than underage kids who were not binge 
drinkers.
    That same report said that in 2000, almost 7 million children under 
the age of 21 were binge drinkers.
    We obviously have a problem with some of our students being able to 
control their behavior and knowing when to say when.
    And we also have a problem with underage children having easy 
access to alcohol.
    I don't know if these kids are getting alcohol from older students 
or from going to parties or even using fake ID's in bars and liquor 
stores, but as long as kids who shouldn't be drinking can easily get 
beer and liquor then we really have little or no control over the 
system.
    Unfortunately, there isn't an easy answer to solving this problem. 
However, getting these children back on the right track will require an 
effort by all of us, including parents, teachers, schools, local 
communities, and the students themselves.
    I want to thank our witnesses for being here today, and I am hoping 
that they will shed some light on what else we need to be doing to keep 
our young people safe.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] 80600.005
    
    [GRAPHIC] [TIFF OMITTED] 80600.006
    
    [GRAPHIC] [TIFF OMITTED] 80600.007
    
    [GRAPHIC] [TIFF OMITTED] 80600.008
    
    [GRAPHIC] [TIFF OMITTED] 80600.009
    
    [GRAPHIC] [TIFF OMITTED] 80600.010
    
    [GRAPHIC] [TIFF OMITTED] 80600.011
    
    [GRAPHIC] [TIFF OMITTED] 80600.012
    
    [GRAPHIC] [TIFF OMITTED] 80600.013
    
    [GRAPHIC] [TIFF OMITTED] 80600.014
    
    [GRAPHIC] [TIFF OMITTED] 80600.015
    
    [GRAPHIC] [TIFF OMITTED] 80600.016
    
    [GRAPHIC] [TIFF OMITTED] 80600.017
    
    [GRAPHIC] [TIFF OMITTED] 80600.018
    
    [GRAPHIC] [TIFF OMITTED] 80600.019
    
    [GRAPHIC] [TIFF OMITTED] 80600.020
    
    [GRAPHIC] [TIFF OMITTED] 80600.021
    
    [GRAPHIC] [TIFF OMITTED] 80600.022
    
    [GRAPHIC] [TIFF OMITTED] 80600.023
    
    [GRAPHIC] [TIFF OMITTED] 80600.024
    
    [GRAPHIC] [TIFF OMITTED] 80600.025
    
    [GRAPHIC] [TIFF OMITTED] 80600.026
    
    [GRAPHIC] [TIFF OMITTED] 80600.027
    
    [GRAPHIC] [TIFF OMITTED] 80600.028
    
    [GRAPHIC] [TIFF OMITTED] 80600.029
    
    [GRAPHIC] [TIFF OMITTED] 80600.030
    
    [GRAPHIC] [TIFF OMITTED] 80600.031
    
    [GRAPHIC] [TIFF OMITTED] 80600.032
    
    [GRAPHIC] [TIFF OMITTED] 80600.033
    
    [GRAPHIC] [TIFF OMITTED] 80600.034
    
    [GRAPHIC] [TIFF OMITTED] 80600.035
    
    [GRAPHIC] [TIFF OMITTED] 80600.036
    
    [GRAPHIC] [TIFF OMITTED] 80600.037
    
    [GRAPHIC] [TIFF OMITTED] 80600.038
    
    [GRAPHIC] [TIFF OMITTED] 80600.039
    
    [GRAPHIC] [TIFF OMITTED] 80600.040
    
    [GRAPHIC] [TIFF OMITTED] 80600.041
    
    [GRAPHIC] [TIFF OMITTED] 80600.042
    
    [GRAPHIC] [TIFF OMITTED] 80600.043
    
    [GRAPHIC] [TIFF OMITTED] 80600.044
    
    [GRAPHIC] [TIFF OMITTED] 80600.045
    
    [GRAPHIC] [TIFF OMITTED] 80600.001
    
    [GRAPHIC] [TIFF OMITTED] 80600.002
    
    [GRAPHIC] [TIFF OMITTED] 80600.003
    
    [GRAPHIC] [TIFF OMITTED] 80600.004
    
    [GRAPHIC] [TIFF OMITTED] 80600.046
    
    [GRAPHIC] [TIFF OMITTED] 80600.047
    
    [GRAPHIC] [TIFF OMITTED] 80600.048
    
    [GRAPHIC] [TIFF OMITTED] 80600.049
    
    [GRAPHIC] [TIFF OMITTED] 80600.050
    
    [GRAPHIC] [TIFF OMITTED] 80600.051
    
    [GRAPHIC] [TIFF OMITTED] 80600.052
    
    [GRAPHIC] [TIFF OMITTED] 80600.053
    
    [GRAPHIC] [TIFF OMITTED] 80600.054
    
    [GRAPHIC] [TIFF OMITTED] 80600.055
    
    [GRAPHIC] [TIFF OMITTED] 80600.056
    
    [GRAPHIC] [TIFF OMITTED] 80600.057
    
    [GRAPHIC] [TIFF OMITTED] 80600.058
    
    [GRAPHIC] [TIFF OMITTED] 80600.059
    
    [GRAPHIC] [TIFF OMITTED] 80600.060
    
    [GRAPHIC] [TIFF OMITTED] 80600.061
    
    [GRAPHIC] [TIFF OMITTED] 80600.062
    
    [GRAPHIC] [TIFF OMITTED] 80600.063
    
                                   - 

</pre></body></html>
